<html>
<title> - UNOFFICIAL RELIGION IN CHINA: BEYOND THE PARTY'S RULES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





                     UNOFFICIAL RELIGION IN CHINA:
                        BEYOND THE PARTY'S RULES

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2005

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-814                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate                               House

CHUCK HAGEL, Nebraska, Chairman      JAMES A. LEACH, Iowa, Co-Chairman
SAM BROWNBACK, Kansas                DAVID DREIER, California
GORDON SMITH, Oregon                 FRANK R. WOLF, Virginia
JIM DeMINT, South Carolina           JOSEPH R. PITTS, Pennsylvania
MEL MARTINEZ, Florida                ROBERT B. ADERHOLT, Alabama
MAX BAUCUS, Montana                  
CARL LEVIN, Michigan                 
DIANNE FEINSTEIN, California         
BYRON DORGAN, North Dakota           
                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                  STEPHEN J. LAW, Department of Labor
                 PAULA DOBRIANSKY, Department of State

                David Dorman, Staff Director (Chairman)

               John Foarde, Staff Director (Co-Chairman)

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Ownby, David, Director, the Center of East Asian Studies, 
  University of Montreal, Montreal, Canada DC....................     2
Thornton, Patricia M., Associate Professor of Political Science, 
  Trinity College, Hartford, CT..................................     5
Weller, Robert P., Professor of Anthropology and Research 
  Assistant, Institute on Culture, Religion, and World Affairs, 
  Boston University, Boston, MA..................................     8

                                APPENDIX
                          Prepared Statements

Ownby, David.....................................................    28
Thornton, Patricia M.............................................    31
Weller, Robert P.................................................    35

 
         UNOFFICIAL RELIGION IN CHINA: BEYOND THE PARTY'S RULES

                              ----------                              


                          MONDAY, MAY 23, 2005

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The Roundtable was convened, pursuant to notice, at 2 p.m., 
in room 2255, Rayburn House Office Building, John Foarde (staff 
director) presiding.
    Also present: Susan Roosevelt Weld, general counsel; Mark 
Milosch, special advisor; Katherine Palmer Kaup, special 
advisor; Steve Marshall, special advisor; William A. Farris, 
senior specialist on Internet and commercial rule of law; and 
Laura Mitchell, 
research associate.
    Mr. Foarde. Ladies and gentlemen, let us begin this 
afternoon.
    Welcome to this Issues Roundtable of the Congressional-
Executive Commission on China. On behalf of our chairman, 
Senator Chuck Hagel, and our co-chairman, Congressman Jim 
Leach, and the members of the CECC, welcome to our panelists 
and to all who have come to listen to their testimony this 
afternoon.
    One of the issues that our Commission members most care 
about is freedom of religion. Of all the questions that we get 
from the 23 members of our Commission on a regular basis, 
freedom of religion questions predominate.
    Over the past three and a half years, we have looked at a 
number of aspects of religious freedom in China and the 
restrictions on religious practice, but we have not looked at 
what might be termed ``unofficial'' religions in China.
    After the reform and opening up period began in the late 
1970s, the Chinese Communist Party changed its previous policy 
toward religion from complete repression of religious belief 
and practice to a rigid system that permitted believers a 
narrow range of Party-controlled religious practices. The 
growing number of believers and their flourishing new creeds, 
however, frequently has not fit within the government and 
Party-approved structure. So this roundtable seeks to examine 
the beliefs of these believers and how they have grown rapidly 
outside the official system, and also to assess the Chinese 
Government's efforts to control them. To help us with this 
inquiry this afternoon we have three distinguished panelists, 
and I will introduce each at some length. We have Patricia 
Thornton, David Ownby, and Robert Weller.
    As we have in the past, we will ask each of our panelists 
to speak for about 10 minutes. When they have all spoken, we 
will go to a question and answer session that the staff panel 
up here will participate in, asking our panelists questions for 
about five minutes each. We will do as many rounds as we have 
time for before 3:30 arrives, or we exhaust the topic, 
whichever comes first.
    So let me now first recognize David Ownby. David is 
director of the Center of East Asian Studies at the University 
of Montreal in Canada, and has come fairly far afield for 
panelists at these roundtables. Professor Ownby earned his B.A. 
in History from Vanderbilt University and his Master's degree 
in East Asian Studies and a Ph.D. in History and East Asian 
Languages from Harvard University. His research and 
publications include ``Brotherhoods and Secret Societies in 
Early and Mid-Qing China: The Formation of a Tradition,'' 
``Scriptures of the Way of the Temple of the Heavenly 
Immortals,'' ``Imperial Fantasies: Chinese Communists and 
Peasant Rebellions,'' ``Comparative Studies in Society and 
History,'' ``Sous presse,'' and ``Is There a Chinese 
Millenarian Tradition? An Analysis of Recent Western Studies of 
the Taiping Rebellion.''
    Welcome, David Ownby. Thank you for being here. Over to you 
for 10 minutes or so.

 STATEMENT OF DAVID OWNBY, DIRECTOR, THE CENTER OF EAST ASIAN 
       STUDIES, UNIVERSITY OF MONTREAL, MONTREAL, CANADA

    Mr. Ownby. Thank you very much.
    I think probably the most important thing that any of us 
can do today, for the panel and for the broader issue, the 
broader understanding of what religion is in China, is to come 
to terms with what ``religion'' means in China and what 
``unofficial'' religion might be.
    In traditional China, there was no word that meant 
``religion.'' The word came in during the late 19th/early 20th 
century from the Japanese, who had translated it from European 
languages. It is not that the Chinese were not religious, it is 
just that they did not divide the world up into what was 
religion and what was not religion. So in the early 20th 
century, Chinese intellectuals and the Chinese state adopted a 
definition of Chinese religion which was modeled after 
definitions that they found in the West. This definition has 
been incorporated into Chinese Constitutions since 1912.
    Religion, then, in the Chinese context, the word zongjiao, 
which maintains still a very foreign sort of flavor to it in 
the Chinese context, means a world historical religion with 
clergy, with a textual corpus, a textual body surrounding the 
faith, and a set of institutions. The Chinese adopted this 
definition as a part of a modernizing enterprise. They were 
building a state. They looked around the world and found that 
most modern states had some sort of posture vis-a-vis religion, 
and they just took this one. Although we can find some 
continuities between what these modernizers did in the early 
20th century and what Confucian administrators did over the 
centuries, this was not a Chinese thing. This was new. This was 
Western.
    They borrowed it because they wanted to look like the rest 
of the world as they wrote their first Constitutions. They were 
not attempting to find a definition that accorded in any sense 
with Chinese religious reality, as it was experienced on the 
ground. Indeed, when we look in the Constitutions from 1912 
forward, we find not only the definition, but they go on to 
specify what these religions are in China. There are five: 
Buddhism, Daoism, Islam, Protestantism, and Catholicism.
    Now, what is interesting for us as we contemplate the 
phenomenon of unofficial religion and its explosion in the 
post-Mao period is that almost everything that was religious in 
China at that point, and prior to that point, and since that 
point, everything that is authentically Chinese and religious, 
remained outside of those categories. There were Buddhist and 
Daoist churches, but these had not been flourishing for some 
centuries. Islam had a presence for some centuries, but there 
was a minority presence. Neither Protestantism nor Catholicism, 
despite the efforts of missionaries since the Jesuits in the 
16th century, had managed to convert large numbers of Chinese, 
so these were at the margins of what the Chinese religious 
experience was.
    The major point I want to make here is that unofficial 
religion equals Chinese religion, to a very large degree. In 
other words, the Chinese state and Chinese intellectuals who 
think about religion in this tradition have not accorded a 
space to what most Chinese would have considered to be their 
spiritual practices. People who go to the local temple do not 
think of themselves as practicing religion, and it would not 
make sense to them if you asked them, ``Do you want your 
religion to be protected? '' They would just simply look at you 
blankly.
    Now, when we look at this in a historical perspective, this 
definition has largely stood from the early 20th century until 
now. So for these 100 years, from the point at which the 
Chinese state decided to give a definition to what religion was 
in China until now, that has been pretty much it. That is the 
way the state has defined things. The state has chosen to 
enforce that definition to varying degrees over time. The 
Communist state did it much better, or much more thoroughly, 
than its predecessor. The Nationalist state was rather weak and 
had other things to do. The Communist state was very strong and 
unified China, and was able to enforce this vision.
    What happened with the death of Mao Zedong and the eclipse 
of the revolutionary impulse is that the Chinese state, 
beginning roughly 1978 to 1980, backed off. They stopped trying 
to micro-manage every aspect of popular life and consciousness. 
This created a space for religion of all sorts to blossom. We 
know that, since 1980, there has been an enormous expansion, 
both in the practice of officially recognized religions, and in 
the practice of unofficial 
religions.
    The changes since this reform era began have been largely 
in the state's decision to look the other way and to allow much 
more latitude. This was rarely a formal recognition of any 
particular right to people who were outside the formally 
approved churches. It was just that the state had other things 
to do and decided not to invest the enormous amounts of money 
it takes to tell people what to 
believe and what not to believe.
    So what has changed, then, in addition to the state looking 
the other way, is that technology has enabled religions to take 
a variety of different forms. But when we think about 
unofficial religions, I think the important thing to bear in 
mind that they are not necessarily new. The volume is new, but 
this is a return to the latitude that a weaker state had 
accorded in a previous period. Unofficial religions that have 
appeared, we can categorize in a number of ways. I would call 
qigong and Falun Gong unofficial religions, of a sort. In the 
question and answer period, I can address how they emerged and 
how this fits in with the general argument I am presenting.
    The ``home church'' Christianity movement is an unofficial 
religion which has gained many followers in China. In addition, 
there are more traditional forms of unofficial religions, such 
as local cults, local village cults, pietistic cults, secret 
societies.
    Again, what is new in all of this is the degree to which 
the state looks the other way, and also, when we look at Falun 
Gong or qigong, or even home church Christianity, technology 
has enabled, via cybertools, via Web sites, via cell phones, 
people can build networks much more easily than they did in the 
past, and they have done this in China. So, technology has 
changed the basic rules of the game, to some degree.
    Another basic difference that I will just mention very 
briefly, is that the Chinese community outside of China has 
changed, the Chinese diaspora has changed enormously in such a 
manner as to have an impact in important ways on the practice 
of unofficial religion in China. The first place that this is 
important would be Taiwan. Rob Weller will talk about this in 
more detail. But the fact of Taiwan's democratization and 
Taiwan's relative openness to a variety of what heretofore had 
been considered unofficial religions in both China and Taiwan 
has invigorated similar things in China. People from Taiwan can 
go back to China. This is true as well for Christianity. Lots 
of missionaries come. It is a weird sort of map, when you think 
of it. A Mormon missionary leaves Utah and goes to Taiwan, 
converts Taiwanese to Mormonism, the Taiwanese goes back to 
China and converts Chinese. But this is the way that it works.
    The other difference in terms of the Chinese diaspora is 
that ever since the early 1980s, there has been a new Chinese 
diaspora forming in North America and the rest of the West. 
This is a different sort of group than has been present 
heretofore. In North America, we are used to thinking of these 
sort of bachelor restauranteurs and laundry workers in San 
Francisco who came over in the early part of the 20th century. 
But ever since the early 1980s, with China's openness to the 
world, waves of immigration have been coming out of China and 
the filter of immigration in the West has tended to select 
Chinese who are well-educated, well-off, able to integrate, 
able to speak English.
    As a result, then, we see this very much in the context of 
Falun Gong, for instance, following the campaign of suppression 
launched by the Chinese state from the summer of 1999 forward, 
Falun Gong practitioners in the West have been extremely 
effective and active in bringing pressure to bear, both on 
Western governments and on the Chinese state, to stop the 
campaign. Not only do they bring pressure using the various 
technological tools that I mentioned a while ago, but also they 
bring together discourses of freedom of religion and freedom of 
belief which were not there in China previously.
    So to sum up, the latitude of the Chinese state, which has 
had other things to do than to tell believers at every moment 
what they should believe and how they should practice, allied 
with the growth of a Chinese diaspora in Greater China and in 
the West in general, have reinvigorated this return to 
religiosity which we have seen in China for some 20, 25 years. 
It is likely to continue, in my view, and an ongoing cycle of 
openness and repression, unless there is some breakthrough in 
the state of mind of the Chinese Government. But I will stop 
there and leave that for the question and 
answer period.
    Mr. Foarde. You are remarkably disciplined, because you 
ended just as the time was running out. I appreciate it, 
because I know normally you are used to speaking for a little 
longer during class periods.
    Mr. Ownby. It is a pleasure not to have to speak longer.
    [The prepared statement of Mr. Ownby appears in the 
appendix.]
    Mr. Foarde. I am sure. And thank you for getting us started 
with such a rich set of issues that we can come back to during 
the question and answer session.
    I would now like to recognize Patricia Thornton, Associate 
Professor of Political Science at Trinity College in Hartford, 
CT. Patricia earned her Bachelors degree from Swarthmore 
College and a Master's degree in Political Science from the 
University of Washington. After earning her Ph.D. in Political 
Science from the University of California at Berkeley, she 
spent one year as an An Wang Post-doctoral Research Fellow at 
Harvard University's Fairbank Center for East Asian Research. 
Her research centers on social organizations and syncretic 
sectarian groups in contemporary China. In 2003, she was 
awarded a grant from the J. William Fulbright Foundation's New 
Century Scholars program, allowing her to spend several months 
abroad researching syncretic cybersects and other Internet-
based groups in Greater China and elsewhere. Her current 
research focuses on how syncretic sects in contemporary China 
have made use of high-tech resources such as the World Wide 
Web, Internet, and e-mail. Professor Thornton, thank you very 
much for being here. Please.

   STATEMENT OF PATRICIA M. THORNTON, ASSOCIATE PROFESSOR OF 
        POLITICAL SCIENCE, TRINITY COLLEGE, HARTFORD, CT

    Ms. Thornton. Thank you.
    Beginning in 1978, the opening of Chinese markets to 
international exchanges, the dismantling of Mao-era 
institutions, and the general relaxation of central political 
controls all helped to set the stage for widespread religious 
revival in the PRC. Syncretic sects of various types have 
emerged in large numbers in recent years, many with ties to 
traditional religious groups that were largely suppressed 
during the early years of Communist Party rule. At the same 
time, the development and availability of high-technology 
resources, including fax machines, cell phones, text messaging 
systems, and of course the Internet, has facilitated both 
communication and social mobilization, culminating in a new 
type of threat to the current regime. In the eyes of many 
Chinese 
authorities, the confluence of these three trends, the 
relaxation of political controls, the resurgence of popular 
interest in spiritual and religious practices, and the 
development of new information technologies has created a 
virtual ``perfect storm'' for Internet-based dissent against 
the current regime. Highly sophisticated transnational networks 
of committed political and religious dissidents have emerged to 
challenge the leadership of the Party and the state on several 
fronts.
    One result of this confluence of trends has been the 
emergence of what I call cybersectarianism in transnational 
China. The most successful of the new Chinese cybersects 
combine Web-based strategies of text distribution, recruitment, 
and information-sharing strategies with multi-faceted 
international media campaigns and periodic, but high profile, 
episodes of protest both in and outside the PRC. Funded at 
least in part by overseas Chinese communities, some of these 
cybersects have begun pooling their resources, both with other 
like-minded religious or spiritual groups, as well as with 
other dissident organizations based abroad. Like the Internet 
itself upon which they have relied so heavily in their recent 
development and expansion, the new cybersects have morphed into 
far-flung transnational networks in which the political and 
religious dissidents speak and secure the support of 
international authorities and non-governmental organizations to 
frame issues and to pursue various political agendas.
    In my written statement, I refer to several such groups. 
But for the sake of brevity here today, I will focus in my 
opening remarks on the group commonly referred to as Falun Gong 
because it is both the best-known and best-elaborated example 
of this phenomenon.
    Li Hongzhi, the group's founder and leader, created his 
unique system of meditation involving particular postures and 
bodily movement and began teaching it to the broader public in 
the PRC in 1992. Despite the movement's popularity in China, 
Falun Gong, also known as and commonly referred to as Falun 
Dafa, was little known outside the PRC until April 25, 1999, 
when 10,000 Falun Gong practitioners staged a mass sit-in in 
front of the walled leadership compound in Beijing. Weeks 
later, when Li was asked how the group managed to pull of such 
a large-scale event, he confirmed that they had relied on the 
Internet in order to organize the protest. The earliest history 
of Falun Gong's use of the Internet was most likely the result 
of an uncoordinated effort of a few Web-savvy practitioners. 
Web sites devoted to Falun Gong first began appearing on the 
Internet in 1993 or 1994, and were generally created and 
maintained by Chinese college students, academics, or other 
practitioners residing here in the United States. These first 
pages comprised little more than a series of links to 
downloadable copies of Master Li's published works, along with 
a brief introduction to the group's beliefs and practices. Most 
provided news of U.S.-based Falun Gong chapters, which were 
often centered on American college campuses and which also held 
regular sessions open to the public. There was a fair amount of 
latitude among the local chapters' Web sites during the early 
phase of the movement, and the information available from them 
frequently varied in content.
    The initial efforts at centralization of these sites came 
in 1995, when the Foreign Liaison group of the Falun Dafa 
Research Society established a protocol for monitoring the 
group's presence on the Web. In 1997 and 1998, a series of 
notices appeared on Falun Gong sites that attempted to reign in 
the virtual movement by redirecting viewers to a few main sites 
with more carefully controlled content, monitored bulletin 
boards, and updated information from the organization's central 
leadership. These central Web sites continue to serve as a 
vital source of information for practitioners across the globe, 
helping to organize collective actions of various kinds, as 
well as to provide venues for sharing religious experiences 
within the community of the faithful. Despite the attempts of 
mainland authorities to block access to these Web sites, 
practitioners in the PRC continued to evade controls by using 
untraceable Web-based e-mail accounts accessed in Internet 
cafes, proxy servers, and new anonymizing software. Many sites 
provide instruction on how to evade official surveillance by 
using proxy servers to log on in order to view or download 
banned information.
    The banning of Falun Gong and other heterodox sects in 1999 
shifted the struggle in large part to virtual reality, with the 
banned cybersects adopting what some have called ``repertoires 
of electronic contention,'' including the use of Web sites and 
e-mail to mobilize participants for conventional 
demonstrations, as well as ``hacktivism,'' which includes 
tactics of disruptive electronic contention, and even 
cyberterrorism, by which I mean physical harm done to groups 
and individuals by the disruption of power grids, traffic 
control, and other systems of resources delivery and public 
safety. With the help of supporters based abroad, underground 
Falun Gong cells in Greater China have managed to highjack the 
satellite uplink feed to Central Chinese television on numerous 
occasions, and to broadcast pro-Falun Gong videotaped messages 
to many locations across the PRC. More recently, Chinese 
authorities have also accused Falun Gong members of sabotaging 
or defacing public transportation systems, and even of 
obstructing the government's attempts to control the spread of 
SARS.
    Falun Gong followers and other dissidents have in turn 
accused Chinese officials of performing surveillance on and 
penetrating online sites where dissenters tend to congregate in 
order to engage in various forms of cyber-espionage and 
entrapment schemes.
    In summing up, it is important to note that, as 
sophisticated as official surveillance and repression of such 
groups has become in the PRC, such measures have not only not 
eliminated the new cybersects, but have in fact intensified 
their reliance upon Web-based high-tech strategies of 
contention. As necessity is indeed the mother of invention, 
these efforts have arguably made them more capable of planning 
and carrying out difficult, ambiguous, and complex tasks. At 
the same time, the move to virtual reality has not been without 
its costs to the groups in question. The decentralization of 
Web-based movements has already contributed to some splintering 
and fragmentation of the membership of these groups. While such 
power struggles are by no means unheard of in more traditional 
religious orders, such issues seem destined to revisit the 
banned cybersects in the future. Nonetheless, as the case of 
Falun Gong amply demonstrates, access to the Internet has 
proved to be a real lifeline for groups driven underground by 
the brutal crackdown.
    Thank you for your time. I would be happy to answer any 
questions in the upcoming session.
    [The prepared statement of Ms. Thornton appears in the 
appendix.]
    Mr. Foarde. Thank you very much. We look forward to asking 
you some questions about all of those interesting issues that 
you raised.
    Let us go right on then and recognize Professor Robert 
Weller, Professor of Anthropology and Research Associate in the 
Institute on Culture, Religion, and World Affairs at Boston 
University. Professor Weller earned his doctorate in 
anthropology from Johns Hopkins in 1980 for work on the role of 
religious variation in Taiwan's changing economy and society. 
He taught at Duke University 
before going to Boston University, where he is a Professor of 
Anthropology, as well as a member of the university's Institute 
on Culture, Religion, and World Affairs. His most recent book 
is ``Alternate Civilities: Democracy and Culture in China and 
Taiwan.'' Other books include ``Unities and Diversities in 
Chinese Religion and Resistance, Chaos and Control in China: 
Taiping Rebels, Taiwanese Ghosts, and Tiananmen.'' I am happy 
to say that two new books will appear this year: ``Civil Life, 
Globalization, and Political Change in Asia: Organizing Between 
Family and State,'' and the second, ``Discovering Nature: 
Globalization and Environmental Culture in China and Taiwan.''
    Professor Weller, welcome. Thank you very much for sharing 
your expertise with us this afternoon.

 STATEMENT OF ROBERT P. WELLER, PROFESSOR OF ANTHROPOLOGY AND 
 RESEARCH ASSOCIATE, INSTITUTE ON CULTURE, RELIGION, AND WORLD 
             AFFAIRS, BOSTON UNIVERSITY, BOSTON, MA

    Mr. Weller. Thank you very much for having me. Forgive me 
also for reading.
    Most Chinese religious activity has never been part of any 
broader organized church and it has never had much 
institutional existence beyond the local community. This is 
still true today, where people across China burn incense to 
gods and ancestors, but they have no affiliation with any of 
China's religious organizations. This sort of popular worship, 
for lack of a better name, is by far the largest part of 
China's current religious resurgence. It is also the most 
neglected.
    But let me just go to the 20th century, where religions of 
all kinds have struggled in China throughout the entire 
century. The Nationalist government, the KMT that took over 
from the last imperial dynasty in 1911, saw most religion as a 
remnant from pre-modern times, embarrassing to their hopes of 
modernity, draining valuable resources from the people that 
should be invested in more economically productive ways. They 
looked with particular disfavor on popular worship and 
instituted massive campaigns to convert temples to secular use. 
As I am sure you all know, it only got worse after 1949 with 
the Cultural Revolution essentially ending all external forms 
of religious activity.
    Since the 1980s, though, there has been a significant 
relaxation in attitudes. Although there are still periodic 
crackdowns--the most significant recent one, of course, was 
after the Falun Gong demonstrations in 1999 and for a few years 
thereafter--there is still a general feeling of distrust of 
religion from many local cadres and a continuing lack of any 
legal status for popular worship. That is, not only are there 
not even the nominal guarantees of freedom of religion in the 
Constitution, because this does not count as religion, but 
local temples are technically illegal because they are social 
organizations that have no registration with the state.
    In spite of all this, the last two decades have seen an 
enormous increase in religious activities of every type in 
China. I will stick to what we are calling informal religions, 
whatever exactly that is supposed to indicate. Of those, I 
would guess that the kinds of pietistic sects that David 
referred to very briefly, or secret societies, are quite 
widespread, but they are thoroughly underground. They are quite 
illegal and really do not dare stick their heads above ground. 
That is especially true since the repression of Falun Gong. We 
have no reliable research on them because it is so thoroughly 
underground. I could only speculate about them, and I will not.
    Popular religion, though, popular worship, is a quite 
different state of affairs. It is coming back powerfully, 
especially in rural areas, not equally across the country, but 
certainly in some areas. In northern Fujian, for instance, we 
have the most thorough study of the revival of popular worship. 
In a survey of 600 villages, every village has rebuilt temples. 
The average village has 2.4 or so--I did not bring the exact 
number--temples. In 600 villages, something like 6,000 god 
images were documented in this survey, and that represents the 
current situation.
    This kind of thing is not typical of China. This is 
probably the extreme. I expect it rivals what religion had ever 
been like in that area. It is rarer in north China, say. 
Nevertheless, we have reports of active local popular worship 
across the entire country. As a wild guess--and I will not be 
held to the figure and will not take responsibility for it--
something like half the rural population, maybe. That would 
mean we are talking about 300 or 400 million people, far larger 
than any other religious activity in China. If it were a world 
religion, it would be one of the largest religions in the 
world.
    Legally, China has created space for religions that are 
officially recognized, the sort of thing David talked about, 
and institutionalized within a state-dominated corporatist 
framework. Two kinds of religious activity clearly fall outside 
of even that limited framework. First, there are those 
religions that, since 1999 or 2000, have been condemned as 
``evil cults'' xiejiao. It is the resurrection of an old 
Imperial term. That includes essentially all of the secret 
societies and pietistic sects, Falun Gong, of course, and 
really any institutional religious activity that falls outside 
of state control. The second is activity that has very low 
levels of institution, does not have texts, does not have 
priests, does not meet the kind of modernist definition of 
religion that China has adopted, and is not religion by their 
definition. This is all popular worship of local gods. The 
government condemns this as feudal superstition, so it has not 
even those nominal protections of freedom of religion. 
Nevertheless, outside of purely economic relationships like the 
market, religion and kinship remain the two most important 
sources of social ties in a village. That social role has been 
critical, I think, first in Taiwan, and maybe now also in 
China.
    Let me turn to Taiwan for a few minutes. The Nationalists 
who took over Taiwan after the Japanese occupation in 1945 
tolerated popular worship, but just barely. They campaigned 
against it consistently in a continuation of their policy from 
before World War II on the mainland. They never repressed it to 
anything like the extent to which it was repressed by the 
Communist regime. The Nationalists did campaign against it as 
wasteful, as superstitious, and just plain unsanitary.
    By the 1960s, the academic literature thought this sort of 
religion was dying out in Taiwan, as of course we thought it 
was dying out in China in the 1970s. Nevertheless, as the 
island grew wealthier around this period, people began to 
rebuild popular temples on ever more lavish scales, ritual 
events became larger and more elaborate, and a few temples 
really became important at the level of the entire island.
    With the democratization of Taiwan in the late 1980s, those 
campaigns against popular religion ended. In fact, the tides 
reversed completely. Politicians now regularly visit local 
temples in attempts to appeal to the electorate. The religious 
boom that I think has been going on for three decades now in 
Taiwan continues, and temples remain really closely entwined 
with daily life, both in the countryside and in the city now.
    At roughly the same time popular religion began to boom 
again, that is, the 1970s, various forms of more organized 
religion also drew a lot of attention. The most striking, was 
growth among these pietistic sects, the inheritors of the old 
White Lotus kind of tradition. These had also been illegal in 
Taiwan and were repressed. They operated underground in Taiwan, 
although, in fact, they are very conservative. I read spirit 
possession texts from these groups: when the god comes down and 
says, here is what you must do, be filial to your parents and 
obey the Constitution, that kind of thing. Nevertheless, the 
rebellious potential that had been realized in the past was 
enough to keep these illegal. Unlike temple religion, these 
sects were built more of voluntary members who got together 
secretly for regular meetings as congregations, often featuring 
texts revealed by spirit possession.
    By the 1980s when they were finally legalized, they claimed 
millions of members, including some of Taiwan's wealthiest 
entrepreneurs. The man behind Eva Airlines, for instance, or 
Evergreen Shipping, is a very prominent member of one of these 
groups.
    But democratization in 1987 ended political campaigns 
against temple worship, opened up space for new Buddhist-based 
social philanthropic groups with millions of followers--these 
are not formal religion; I will not talk about them, but would 
be happy to take questions--and legalized the pietistic sects.
    Just as important, we can see how local religion could help 
consolidate the civil society that quickly developed in Taiwan. 
It was one of the few areas where local social ties were there 
and could develop outside the powerful authoritarian control of 
the KMT before 1987. Temple religion provided an important 
resource to put democracy on a strong social base. In contrast, 
in countries where authoritarian rule was more successful in 
destroying alternate social ties that has tended to be replaced 
by ``gangsterism.'' Look at Albania, for example.
    While temple religion did not directly cause Taiwan to 
democratize, it has been crucial in consolidating an effective 
democracy there. We see the role especially where temples help 
organize local people to protect their welfare, for instance, 
by protesting against polluting factories.
    Now, if we turn back to China, what are the possibilities 
there? The growth of informal religion in China beginning in 
the 1980s is reminiscent of Taiwan a decade or two earlier, and 
it is possible because local officials, in practice, are 
willing to turn a blind eye toward what is going on, or in fact 
cooperate with local people in finding ways to legitimize newly 
rebuilt temples and revive festivals, even though beneath that 
they always retain the power to repress them, and that power is 
sometimes realized. In some ways, this has encouraged local 
temples to mobilize social capital even more in order to 
negotiate with the state. One successful temple in Shaanxi, for 
example, achieved legitimacy by building an arboretum attached 
to the temple, and eventually attracted the attention of 
national and international NGOs, completely delighting the 
local government, of course. Others build schools or call 
themselves museums of local cultural history, and so forth. 
Now, maybe these activities are undertaken cynically just to 
keep the state off their backs, but in a sense it does not 
matter. Once undertaken, they are real activities that have 
real effects on Chinese society. There was a recent 
dissertation on the delivery of public goods in China that 
found that villages with strong temple committees also tended 
to have better roads, newer schools, and other, better social 
goods than villages without those committees.
    In the current political climate where China is trying to 
encourage local society to take over many welfare functions 
that it can no longer even claim to provide, we can expect to 
see religion of all kinds, both formal and informal, to 
increase its role. Temples in China also sometimes help 
organize popular protests, mobilizing social capital on behalf 
of the rights of a village. In one case in Gansu, for instance, 
local fertility goddess cults organized an environmental 
protest movement, the argument being that the pollution 
threatened the health of their children, and that is why they 
turned to fertility goddesses. This hardly qualifies as civil 
society, but I think it does show the potential of religion to 
develop means for direct expression of popular needs. None of 
this means that informal religion is going to push China toward 
democracy. I do not think it will. Such religion does have some 
democratic features in its internal organization; leadership is 
chosen by lot, for instance, by divination. It is a core 
reservoir of social capital. It is also limited by a 
fundamental localism and great difficulties in scaling up. 
Nevertheless, the Taiwan experience shows that informal 
religion can be very helpful in consolidating democratic 
openings. The current direction in China shows the way religion 
can improve the quality of life, not just spiritual life, but 
material life, and even under the current regime.
    I think it must be time for me to stop.
    [The prepared statement of Mr. Weller appears in the 
appendix.]
    Mr. Foarde. Thank you very much for your discipline as 
well.
    Let me let the panelists rest their voices for a minute and 
just say that I see a great many familiar faces attending this 
afternoon. But if you are not familiar with the CECC Web site, 
I would invite you to visit it at www.cecc.gov, where you will 
see the written statements of today's panelists, and in due 
course, the full transcript of today's roundtable.
    Let us move on deliberately, then, to the question and 
answer session. Again, I will give each of the members of the 
staff panel about five minutes to ask a question and hear the 
answer, and we will keep going around. If a question is not 
directed specifically at a panelist but you have a comment, we 
would definitely like to hear it. So, sometimes I will invite 
you, but do not wait to be invited if you have something to 
say.
    Let me exercise the prerogative of the chair then and pose 
a question to both Patricia Thornton and David Ownby about 
qigong and Falun Gong. One of the problems that we had in 
trying to figure out how to frame this particular roundtable 
was what to call the phenomenon that we were trying to examine. 
So after much debate and an unsatisfactory set of exchanges of 
ideas, we ended up with ``unofficial religions,'' a term that 
everyone understands is not a particularly good formulation.
    But I was struck by David picking that up and saying that 
qigong and Falun Gong could be considered unofficial religions 
of a sort. Patricia also raised in her discussion of Falun Gong 
a number of things that got me to wonder: is qigong, is Falun 
Gong, a religion, in your view?
    Mr. Ownby. Well, I will go first and confuse issues 
completely. The best way to look at this is through the history 
of where these things came from. It is little known, but qigong 
was actually created by the Chinese state or by the Chinese 
medical establishment in the 1950s.
    The context was that of rapid Westernization, which at that 
time meant Sovietization, of the medical establishment in 
China, which troubled some otherwise right-thinking Communist 
doctors who felt that much of what was valuable about the 
Chinese medical tradition was being lost. Specifically in this 
context, what was being lost was a whole host of techniques, 
practices, visualizations, therapies, of a variety of holistic 
sorts that were not recognized then, or now, very much by 
Western science-based medicine.
    So a handful of people in 1950 decided to go out and get 
these techniques and practices, these therapies, back, to clean 
them up. In other words, if they were attached to ``feudal'' 
beliefs or things that would otherwise not be accepted within 
Communist discourse, to get rid of these attachments but to 
just keep what worked. In other words, to take Daoist 
visualization and turn it into biofeedback. That would be some 
kind of parallel.
    This was qigong, which was created during that period. It 
was a very small part of the Chinese medical establishment. 
They trained clinical personnel and some of the leading cadres 
in the government and Party circles had their aches and pains 
taken care of by qigong clinicians in sanitoria set up to this 
effect. So this was a very obedient sort of non-problematic, 
non-religious--I mean, it was religious in the sense that they 
went out and got this stuff out of the baskets of medicine men. 
I mean, they asked people who knew how to cast spells and 
otherwise cure illnesses how they did it, and then they 
transformed them into something that looked mildly scientific 
and they gave it a new name.
    What happened was that the Cultural Revolution intervened. 
During the Cultural Revolution, qigong was disparaged as being 
feudal superstition, as were many other things. At the end of 
the Cultural Revolution, when qigong came out of hiding, it 
came out in a different form.
    Qigong masters who felt themselves to be possessed of some 
sort of spiritual discipline were teaching healing techniques 
in public parks, and they called it qigong instead of something 
more religious because it was a much safer thing to call 
yourself. Qigong had a perfectly respectable pre-Cultural 
Revolution lineage and heritage, so you could say, ``this is 
qigong, it is all right.'' It probably would not have been all 
right, because it really was religion or religious spiritual 
techniques that they were teaching. But some scientists 
``discovered'' the material existence of qi supposedly in the 
late 1970s, and this gave a thoroughly scientific dialectical 
materialist imprimatur to the entire enterprise.
    So from about 1980 onward, this qigongjie, the qigong 
world, came together where journalists sang the praises of 
qigong and masters came out of the woodwork all over the place, 
and it just got completely--they did not know it at the time--
out of control.
    Now, part of this would not be religious. It would have 
been sort of like calisthenics, in that there are forms of 
qigong where you do the exercises and you feel better, and that 
is it. But one study found almost 500 qigong masters, which 
means that there were a large numbers of schools of qigong. 
Most of these masters brought together traditional morality 
with these gestures and practices, be it visualization or 
meditation, and they explained the workings of it by reference 
to traditional spirit discourse, even if it was not religious. 
Even if it did not identify specifically where this came from, 
much of qigong quite clearly bore the mark of traditional 
religious and spiritual practices. So that is why, in my mind, 
there were religious overtones to it, even if no one in the 
entire tens or hundreds of millions of the qigong practitioners 
would have said, ``we are doing religion.'' It was a willful 
blindness on the part of the state in some ways to allow the 
fact that qi supposedly had a scientific existence to lead them 
away from the fact that people were going into trance and 
having what otherwise would be considered religious 
experiences. Falun Gong grew out of this as well.
    I do not know what you want to add to that, but that is the 
history of where qigong came from.
    Ms. Thornton. I think that is a fairly exhaustive history, 
so I do not know how much I could add. But I would say that, 
with reference to Falun Gong, there are many documents and 
there is a long, ongoing struggle between Falun Gong and the 
Chinese Government over this very question. Of course, the 
Chinese Government sees it as a cult and Falun Gong argues that 
it is adamantly not a cult, and not even a religion.
    I suspect that the truth probably lies somewhere in between 
those two poles. It is not a cult insofar as the leader is not 
revered in the way that a messiah might be, or a messiah-like 
figure would be regarded from within a true cultic-type 
organization, and it is not as hierarchical and formally 
organized as a cult might be. But on the other hand, it is not 
simply an exercise or a very loose set of spiritual practices, 
because there are distinct religious overtones in the texts 
that are associated with the movement.
    Mr. Foarde. Very useful. Thank you very much.
    Organizing these issues roundtables, of which we have done 
about 45 now since the beginning of 2002, takes a lot of work 
and a lot of coordination. But there is always somebody at the 
top of the pyramid, and I am happy to recognize that person, 
our general counsel, Susan Roosevelt Weld. Susan, for your 
questions.
    Ms. Weld. Thanks, John.
    This topic is a fascinating one to me because of the 
decision that was made to select five categories of beliefs as 
the five religions, and observance and practice outside of 
those five as unofficial and not legitimate. It is very 
strange. It requires seeing the world in a particular way. A 
large portion of Chinese spirituality and religion is therefore 
left out. I have recently heard, at a conference organized by 
Professor Weller, that it is conceivable that in China they 
might decide to create another category of permitted religious 
behavior and belief, and it would be called minjian zongjiao, 
which I suppose is popular religion. That is a rather vague 
term. It is hard to make that one rigid. I wonder what the 
impact of that additional category might be in your view. Would 
that create a much larger space for religious practices like 
those you are studying?
    Mr. Weller. Everybody is pointing at me, so I will comment 
on that. This was kind of an ending comment after a conference 
on the category of religion, where we spent a lot of time 
talking about things like, ``can you call Falun Gong a 
religion, and what is a religion, anyway? '' Several people 
mentioned that they thought there would be a sixth category 
added to the current list of five official religions. Some 
people had heard it, but it may all be pretty unreliable. Some 
people thought that certain provinces had already 
experimented with registering at this more local level, using a 
category called minjian zongjiao. That would be interesting. In 
English, we usually say folk religion or popular religion, and 
minjian zongjiao is a direct translation of that. In Taiwan or 
Hong Kong, it is also used exactly in that way in Chinese.
    In China, the term usually did not refer to that, but was 
used all the time for secret societies. That is, for things 
that fit this definition of religion that they did not like. 
Recently, a number of academics have been using minjian 
zongjiao in this more international kind of way. I have taken 
that as a sign that there is a certain loosening up in the 
category and a willingness to consider these kinds of things as 
religion. Now, will it end up as a sixth category? None of us 
really knows. This is a rumor. But I would not be surprised to 
see some experimentation in China to see what happens. I do 
think it is possible. If it happens--I would rather like to see 
it happen--but it carries some dangers along with some 
opportunities. It means these people can come up from 
underground. It means that it is not illegal to have these 
temples that they already have. It protects them in some senses 
from sorts of repression.
    On the other hand, it opens them up to a kind of 
supervision that they currently do not have to put up with. I 
feel sure it is going to involve pressure on them to conform to 
a more ``religious'' idea of what a religion is, like they need 
a sacred text or something like that which may get invented. So 
if it happens, I think it may lead to some real creativity.
    Ms. Weld. Thank you very much. Anybody else?
    Mr. Foarde. Does anybody else have a comment?
    [No response].
    Mr. Foarde. All right.
    Then let me recognize Kate Kaup, who joins us for the year 
as our special advisor on minority nationalities.
    Some questions, please?
    Ms. Kaup. Government religious policy and controls over 
those who adhere to the five state-sanctioned religions have 
been quite different in minority and non-minority areas. The 
enforcement of religious regulations also varies greatly by 
region and by ethnic group. We held a roundtable here in April 
on differing practices of Islam among the Uighurs and the Hui, 
for example. Does government tolerance for unofficial religious 
practices also differ in minority areas and non-minority 
regions? Have you noticed different levels of government 
control in the minority areas and Han areas?
    Mr. Weller. This automatically goes to the anthropologist, 
although you should know that none of us actually works on 
minority areas. I have spent a little bit of time there, but 
doing poverty relief kinds of things for the World Bank, and 
not something related to religion.
    The situation varies widely. The first thing probably to 
say is that in the initial kind of Stalinist attempt to 
classify the minorities, as they ultimately did, religion is a 
core piece of what you have to have to be a minority. Only the 
Han are not supposed to have any religion. For minorities, you 
have to have a culture, and that really was read as a religion. 
So they are supposed to have something, and they have been 
encouraged to have folkloric, cute, harmless religion, a big 
festival day where tourists will come and pay money. That you 
see especially in the Southwest, where they tend to be more 
colorful and not so Islamic. You see an awful lot of that down 
there. So, at that level, it is encouraged. Is that formal or 
informal religion? There is a huge amount of variation in what 
we have in China and the way it is structured, but at least it 
exists. You can have a priest, you can be literate in Yi 
language, or instance, which usually was just a priestly skill 
among the Yi. The Islamic situation--again, if you want to be a 
Hui you have to be Islamic, whatever exactly that means. There, 
if you talk to the Religious Affairs officials in local areas, 
they are often fairly knowledgeable.
    Let me give one case from a poverty relief project that I 
worked on. We were resettling people, including Muslims, the 
Hui people, and I said, ``When you are putting aside money for 
public buildings, you need to put aside money for a mosque, 
too.'' They said, ``No, no, no, we could not possibly do that. 
That would be government support for religion.'' I said, ``All 
right, but you are asking for trouble.'' They said, ``But we 
can do this: we can put aside money for public construction 
where the community itself decides what to do with. They knew 
well the community would build a mosque with it. So, I think 
there is room. That would not have happened if they were 
resettling a Han village. It did not happen when they were 
resettling Han villages. So, I think there is a certain amount 
of flexibility there that the Han have not been able to enjoy. 
Nevertheless, it obviously has strict limits. I think they are 
related to those ``evil cult'' strict limits. If you show you 
can organize institutionally on a large scale, they are going 
to worry about it.
    Mr. Foarde. Do either of the others have a comment? Please.
    Mr. Ownby. I would just say, and this goes back to the 
question that Susan asked, it seems to me that if the category 
of popular religion is created as a sixth category, the danger 
is exactly that danger, that it will become the equivalent of 
the relationship between the state and minority nationalities, 
which is that they need to be cute and bring in tourist 
dollars. I think we should be very careful, when we talk about 
the creation of a category, not to ignore the possibility that 
it is not necessarily a liberalizing impulse. It is far more a 
managerial impulse. If they create a category, as Rob said, 
popular religions will have to sign up. If they sign up, they 
have to conform to whatever the regulations may be, or they 
have to choose not to do that, in which case they are making 
another very difficult choice. I doubt very seriously that they 
have studied the history of the Puritans' move to New England 
and decided that this is a good thing.
    Mr. Foarde. Patricia Thornton's presentation dealt with 
some issues that our next questioner is quite interested in, 
and that is the Internet and technology. William Farris is our 
expert on freedom of expression, and particularly on the 
Internet, and also handles the media relations for us. William.
    Mr. Farris. Thank you. Yes. In fact, my question was going 
to be directed to Ms. Thornton. It is actually a couple of 
questions, or maybe one question that just requires some 
clarification. In your statement just now, and in your written 
statement as well, you used words to describe the Falun Gong 
movement, like ``covert,'' and ``underground,'' and you 
mentioned ``cyberterrorism.'' My understanding is that Falun 
Gong is completely open in areas where it is not forbidden, 
i.e., mainland China. I did not have an understanding that 
Falun Gong is covert or underground in the United States or 
Hong Kong or Taiwan. So, I just wanted to clarify, when you say 
it is covert and underground, I assume you mean by virtue of 
the fact that it is oppressed and illegal to practice Falun 
Gong in mainland China, and therefore they are unable to freely 
practice this spiritual movement. Is that correct?
    Ms. Thornton. Yes. That is exactly what I mean. When I 
refer to the underground part of the movement, I am referring 
only to those Falun Gong cells that might still be in existence 
in mainland China.
    Mr. Farris. All right. And in terms of the aspect of 
cyberterrorism, the incidents that might fit into the types of 
activities that you describe in your written statement, what 
little I have seen of that has been in the Chinese Government's 
state-controlled media. I am wondering, other than these 
accusations which the Chinese Government obviously has an 
ulterior motive for putting forward in attempting to suppress 
Falun Gong, are you aware of any other accusations regarding 
these types of behaviors from sources not controlled by the 
Chinese Government?
    Ms. Thornton. No, I am not. The only references that I have 
seen to the disruption of any kind of transportation or public 
services comes from the state-controlled Chinese media itself. 
I have not seen or heard of any other acts that might be 
considered cyberterrorism from sources that are not associated 
with the Chinese Government, so I cannot confirm that.
    Mr. Farris. Maybe just one more. I am wondering if it is 
possible for you to distinguish between a cybersect and a 
religion or spiritual organization that merely makes use of the 
Internet. When you describe Falun Gong or other groups as 
``cybersects,'' what makes them different from, say, the 
Catholic church, which has its own Web site, and other 
religions that may run forums or bulletin board systems on the 
Internet and make extensive use of e-mail newsletter 
distributions, and things like that?
    Ms. Thornton. When I began looking at these groups as an 
example of a distinct phenomenon, my interest was piqued by the 
fact that they were all banned, overtly banned, in 1999 as 
xiejiao, the heretical sects. So, therefore, the known 
practitioners were of course rounded up and sent off to thought 
reform or labor reform, or detained, or in other ways harassed. 
Those who continued to practice, by all reports, did so 
secretly. Their only chance of linking to the larger community 
of believers would be through the use of such communications 
resources as were afforded to them by Internet access. Over a 
period of time, what was of most interest to me was the way in 
which, at a certain level, the medium became the message. These 
groups, barring any other types of open opportunities for 
social communication or social organization, were forced to 
organize themselves in virtual reality.
    So, actually, the topic of my research, and one of my 
continuing interests, is how forcing a group to rely on the Web 
might change that group's organization. There is some 
suggestion that, by forcing these groups to make the move into 
virtual reality, the groups themselves have splintered and 
fragmented somewhat. So, it has had some kind of an impact. I 
am trying to trace out what the ramifications of that have been 
among not only Falun Gong practitioners, but other groups as 
well.
    Mr. Foarde. Our staff expert who has this year been 
concentrating on Catholicism and Protestantism in China, is 
Mark Milosch. Mark.
    Mr. Milosch. Thank you, John. I have a question for anybody 
who might care to answer it, but perhaps in the first place for 
Patricia. I am interested in two religions that we have not 
mentioned, Orthodoxy and Judaism. Both are unofficial, both 
have very few believers. I believe Orthodoxy claims, at the 
most, 15,000 believers; Judaism, probably only a few hundred 
believers. But they are both relatively non-threatening to the 
government and find diplomatic support abroad. I would be 
curious to hear from you whether you think that there are any 
developments in which these religions are setting a precedent 
that would be helpful to other, larger unofficial religions. 
Orthodoxy, at least, seems to be moving toward a kind of quasi-
official status.
    Mr. Weller. We are clueless. [Laughter.] There are 1.3 
billion people, and Orthodox and Jews are not very many of 
them. It may be they are granted national status of this sort. 
I think the point you made in passing there about international 
support is absolutely crucial, though. The reason Islam, for 
instance, survived as well as it survived is because there was 
a diplomatic side to what China was doing with Islam, and there 
is a diplomatic side certainly with Judaism right now and 
changing relations with Israel, and I would assume with 
Orthodoxy, there being such a large Orthodox world outside of 
China. So, I think those are very special cases. Beyond that, I 
think I know nothing.
    Mr. Milosch. Maybe I will get a second chance later.
    Mr. Foarde. You have got time. Go ahead, if you have 
another question.
    Mr. Milosch. My next question was how far do you think 
policy toward Falun Gong drives policy toward other religions? 
I am wondering if we might have a situation something like 
this: Falun Gong, as the dominant concern, drives policy toward 
underground Protestant and Catholic churches because the 
Chinese Government is afraid, when dealing with the underground 
Protestants, to set precedents that would then haunt the state 
in its dealings with Falun Gong. Have you seen any examples of 
this or anything that would lead you to think this?
    Mr. Ownby. I think it is probably hard to overestimate the 
extent to which that is driving the policy. We were talking 
about popular religion as a category before the entire 
discourse on that. Discussion had begun in the early 1990s, if 
not the late 1980s. There were books published. I have a huge 
book on the history of popular religion in China in which the 
introduction, for instance, was a fairly subtle defense of that 
as a category.
    When Falun Gong broke out my colleagues in China could no 
longer say such things. The Chinese state very clearly called 
on other scholars in the community who had very different 
views.
    What Rob said a little while ago, that in China the term 
used is equal to secret societies and other dangerous 
activities, that wing of the scholarly debate in China took 
over. So, it is very clear that Falun Gong has been the counter 
example which has inspired large amounts of thinking within the 
scholarly community and within the government about how you 
want to define religion, how you want to make religion work on 
the ground. This goes into a whole variety of different ways. 
For instance, strangely enough, I guess, as I read through the 
mountains of material generated by the campaign against Falun 
Gong having to do with the definition of 
religion, how religion should function, there was a large body 
of commentary--again, this is scholarly commentary--having to 
do with how wonderful ``real'' religions are, how they brought 
social stability to China. There was one sentence I recall that 
said, ``even those new religions in the West seem to be largely 
positive phenomena,'' which was an amazing thing to say. In 
China, the category of ``new religious movement'' does not 
exist for the reasons that we just enumerated a little while 
ago. And yet, here is a scholar from, I think it was the World 
Religions Institute in Beijing, saying, ``Look at Scientology. 
Those are good guys. We are stuck with Falun Gong.'' Basically, 
that is what he was saying. I was stunned to run across that.
    On the other hand, as you said, within the recognized 
Christian community--I wrote in the written version of what I 
presented here today--I recalled an instance when I was in 
Beijing at an anti-Falun Gong conference where a gentleman from 
the Nanjing Theological Seminary was there, an elderly Chinese 
Christian, a man with great dignity, but he had little choice 
but to jump with both feet very hard on Falun Gong, the fear 
being that if you are not very careful, all these intellectual 
constructions about, what is religion, what is feudal 
superstition, what is popular religion, it is all much of a 
sameness at a certain point. You can all get grouped into that 
category. Once you are grouped in that category, the bulldozers 
come and knock down your church.
    So, yes, Falun Gong has been immensely destructive to what 
was under way prior to that, which was a more subtle 
negotiation of what religion might mean, how you might work 
with it within China. They have not been able to say anything 
intelligent from a scholarly point of view. I could have an 
interesting discussion with my colleagues in China about 
religion, popular religion. We can have them now, but we cannot 
have them on paper. We cannot have them in public.
    Mr. Weller. I just wanted to add one word. There is no 
doubt that there was a huge impact immediately after 1999 on 
Christians, on Catholics, on these kinds of popular festivals 
that I have talked about, just across the board on everything. 
On the other hand, when David, in his earlier presentation, 
talked about the kind of expansion and retraction process, that 
is how I see this. The law on cults, which does not specify 
Falun Gong but was clearly written in response to Falun Gong, 
applies to everybody.
    On the other hand, the discussion about religion is very 
much back again to a pre-1999 stage. Those canceled popular 
festivals are back. House Christians are active. Again, we say 
it is underground, but a lot of it is not exactly hidden, it is 
just not official. Informal is a good word, I think, for 
something like that.
    Mr. Foarde. Also a member of our religion team is Laura 
Mitchell, who is our research associate. Laura, your turn.
    Ms. Mitchell. Thank you. Some observers have said that in 
China there are regional differences in the extent to which 
local officials allow the practice and organization of 
unofficial and/or popular religious practices. Professor 
Weller, you mentioned Fujian, in particular. Could you discuss 
these regional differences further and explain why the 
differences exist?
    Mr. Weller. Yes, I will try. I think, if the Congress gave 
huge amounts of research money, one of the things I would like 
to find out is the actual regional variation, because we do not 
know. We just know there is a lot of regional variation, so 
even just mapping it in the first place is a bit beyond what we 
can manage.
    Once we have it, there are a number of ways of trying to 
explain it. One is that it might represent a pre-20th century 
pattern. It could just be that the wealthier South always had a 
lot more religious activity than the poorer North, for 
instance. That is another gigantic research project, to try to 
figure that one out. We do not even know enough to answer that.
    I can start to speculate. For instance, Fujian has a huge 
amount, through the whole province. Guangdong, right next door, 
also has a significant amount. It is much harder to get a 
temple constructed in Guangdong than it is in Fujian, even 
though they are right next to each other, and even though they 
are both really far from Beijing. I think the places where 
religion has been most active relate to two things. One, is 
overseas connections. Those clearly help you reestablish this 
kind of popular religion because it is a way of attracting 
overseas people and their money back to China. So, that has had 
a huge effect, but that does not distinguish Fujian and 
Guangdong from each other. They both have that advantage. In 
Gansu or Shaanxi or something, that is a different story.
    So what is the difference between Fujian or Wenzhou--which 
also has very active popular religion--and Guangdong? I think 
it has to do with their relation to the central state. Some 
places have been relatively cut off. Geographically, Fujian is 
surrounded by big mountains. Wenzhou, a city in the next 
province to the north, is also in a kind of basin, 
traditionally rather isolated from the rest of China. Both 
areas directly face Taiwan. That is what has been for a long 
time a strategically important area, and therefore one in which 
China is not going to invest a lot of money in industry.
    Now, in retrospect, that was a good thing for people 
because they do not have all of this highly centralized, 
Cultural Revolution remnant economy to deal with. But it also 
meant they were kind of freer and reacted faster to the 
opportunities of the reforms, and I speculate that that has 
been true for religion, as it has been for economy.
    If you look at the rate of economic change in Fuzhou or 
Xiamen compared to even places in Guangdong, it is a quite 
different kind of reaction. Or Wenzhou, with the real extreme 
of that family economy kind of pattern rather than a state 
economy kind of pattern.
    Mr. Foarde. Steve Marshall handles a number of things for 
us, but we probably think of him first as our expert on Tibet 
and on Tibetan Buddhism.
    Steve, questions?
    Mr. Marshall. This will not be a question about Tibetan 
Buddhism. With respect to the so-called ``unofficial'' 
religions that we are talking about here today and the idea of 
centralization, can any of you give us any thoughts about 
comparing similar types of religious practices that are more 
centralized in one particular area, less centralized in another 
particular area, and where that difference in centralization 
leads to a difference in the success of the practice? And 
particularly if it leads to less persecution for the practice? 
And following on from that, have you see any example of a 
practice of religion that has, as a defensive strategy, moved 
from being more centralized to being less centralized and 
deflected a certain amount of trouble by doing that?
    Mr. Weller. That is a very good question, and we are 
clearly struggling with it. Does anybody want to struggle 
first?
    [No response].
    Let me talk about Taiwan as an example, although I cannot 
think of any decentralization strategy. I feel like there must 
be, and I will probably think of it at 3:31, or something.
    In Taiwan, several things happened that we can see before 
and after democratization. Those really big Buddhist movements, 
for instance, that have millions of members and branches all 
over the world, including here in Washington, I am certain, 
those existed before 1987, but in a rather small way. Instead, 
what we had was the proper corporatist Buddhist Association of 
the Republic of China, which controlled things like 
ordinations, and therefore really controlled what was going on 
and nobody could depart from it too much. After 1987, these 
groups are suddenly freed up so there is a decrease of central 
control, but such a major political change that you cannot 
really talk about it as a strategy. But it really allowed those 
groups to open up.
    Taiwan also had officially recognized religions, more or 
less the same ones as China, and that is not popular religion. 
But you could have a temple and you could register a temple 
with the government just as a local temple. Many did, but many 
did not. So, what would happen in China if we had a minjian 
zongjiao category? My guess is this: some would register, 
others would not.
    The government had a terrible time, at least in Taiwan, 
tearing temples down. Even when they wanted to repress, they 
could not get workers. I had complaints from national parks 
that could not get the temples out, that workers would not tear 
them down because they did not want to die by the hand of the 
god. Once people believe in this stuff, it has a power of its 
own. So, I think something like that would happen.
    The diffuseness of it is important. The diffuseness of it 
is the defense of it. It is also what makes it very flexible. 
We used to think, with modernity, religion went away, right? So 
here is this stuff absolutely thriving, not just in Taiwan, but 
in Hong Kong and overseas Chinese communities, and everywhere.
    One reason is the lack of a big institutional structure, 
the lack of all those educated priests who know what is proper. 
It makes it really flexible in adapting to new kinds of 
situations. Should that get lost by centralizing it, I think it 
is potentially a problem for the group. Daoists, for instance. 
There are probably more Orthodox than Daoists, if we mean 
ordained Daoists who can do the rituals, actually.
    Did that give either of you time to think of something more 
sensible to say? [Laughter.]
    Mr. Ownby. Sensible will not characterize what I have to 
say, I do not think.
    If you think about this question of centralization and 
decentralization in the context of qigong schools and Falun 
Gong, it is a different sort of thing because some of the 
qigong schools were extremely centralized on a very corporate 
sort of scale. They were businesses, some of these. Falun Gong 
was far less centralized, though. It is hard to know whether it 
contributed to their success or not. A number of things 
happened all at the same time, which makes it very hard to 
analyze cause and effect. But Li Hongzhi, although he tried to 
be, I think, a good corporate leader for a little while, either 
found that it really was not his thing, or he had to leave the 
country. These two things happened at the same time. But what 
that wound up creating in the case of Falun Gong was a group 
that was not particularly centralized. What is interesting 
about it when you think about the effects of things like this 
on the character of the movement, is that one of the 
differences between Falun Gong and virtually every other qigong 
school is the emphasis Li Hongzhi and his followers place on 
his scriptures. There are books in other qigong schools that 
demonstrate the exercises, they tell you why they work, but 
they are not really scriptures. They do not have that 
character. Whereas, in Li Hongzhi's case, or Falun Gong's case, 
they do.
    My suspicion for the origin of this--because it was not 
always like that. This came about in late 1994, early 1995--at 
the moment when Li Hongzhi left China and started his worldwide 
mission, I suspect that in his head he said to himself, ``How 
am I going to keep my relationship with my followers while I am 
away? I am going to lose my followers to the practitioners that 
are going to stay in the other parts of the organization that I 
have built up. What I am going to do is say that we are going 
to have a one-to-one relationship, me and my practitioners, via 
my scriptures made available through the Web site.'' It makes 
for a strange sort of thing. On the one hand, it is very much 
focused on the master and what he says. On the other hand, it 
is extremely diffuse. So, obviously it did not save him or his 
organization, being more diffuse and less centralized than 
other schools, but it played out somehow in the evolution of 
the group.
    Ms. Thornton. I would just add, in support of that point, 
that in 1994 and 1995, prior to the ban on all heretical sects, 
I think a lot of the qigong masters saw where this was going, 
and Li Hongzhi in particular, I think, briefly considered 
trying to have the government formally recognize his group in 
some sort of way, but then for various reasons decided not to 
do that. As we got closer to the period of the ban, Li Hongzhi 
and his close leadership, now operating in the United States, 
sent out notices basically instructing what had been a fairly 
structured web of what they called practice points and other 
schools that would teach his method that they needed to disband 
and basically decentralize.
    So, they did deliberately adopt that as a strategy, in part 
because the strategy of the Chinese Government in banning Falun 
Gong, at least in the early phases of the crackdown, was to pin 
them as an illegal social organization. By dismantling the very 
formal and more hierarchical structure, it did provide some 
sort of legal protection, at least nominally, for the group. 
But then the Chinese 
Government caught up by creating new laws and a host of new 
regulations by which they could demonstrate retroactively that 
Falun Gong was, in fact, operating illegally. So there is some 
sense in which decentralization was adopted as a strategy. But 
again, I think, as David pointed out, there was also a way in 
which the one-on-one relationship worked through the Web, and 
through shared texts, and continued to tie those followers in 
mainland China back to the leader.
    Mr. Foarde. Thank you very much.
    Let me now pick up the questioning and try to do a couple 
of things for clarification. All of us who study these things 
are aware of the lexicon of describing groups like this, but 
since this is for the record, I wondered if each of you would 
clarify your understanding of the meaning of two terms, 
``syncretic'' and ``pietistic,'' so that the readers of the 
record will be able to pick up those ideas.
    Does anybody want to start?
    Mr. Weller. ``Pietistic'' is used in the literature, and 
that is the only reason I use it. David is trying to claim that 
my using it is the only reason he used it. The scholar of 
religion who really started us looking at these things, Daniel 
Overmeyer, used the term in an initial description of these 
groups. He was explicitly thinking of early Protestantism and 
trying to make a comparison there, and there are some 
interesting comparisons to be made. But I think the term is 
useful in certain senses. So if we are looking at popular 
worship, I even hesitate to use ``religion'' for that, because 
belief has very little to do with what people are doing. They 
are offering incense and they call this, in Chinese, usually 
bai or jing, both of which mean to pay respects, and they are 
used in secular senses just as much as in religious senses.
    But then come these groups that, yes, still burn incense 
and things, but what really matters is what you believe. It is 
a new set of beliefs. So it is the sort of thing that you might 
talk about converting to, but it does not make sense to say, 
``I will convert to popular religion.'' It is a mismatch of 
categories, somehow. So, I think that is all we mean by 
pietistic. We, at least at this table, I guess, do not want to 
read a lot more into it.
    Syncretic was the other one. Again, the literature on 
Chinese religions simply usually refers to groups that are 
quite self-consciously claiming to combine various religious 
traditions. We see these well before the 20th century. In fact, 
we get the groups called the ``Three Religions in One,'' being 
Buddhism, Daoism, and Islam at that point, and then it becomes 
in the 20th century, usually, the ``Three Plus Two,'' or just, 
``The Five Religions are One.'' So that term refers to a 
specific historical phenomenon in China.
    Mr. Foarde. Really useful. I will not make either of you 
pick that up unless you want to. I just wanted to ask another 
question to you, Rob, about the relationship between what has 
been going on in Taiwan for some time and what may now be going 
on in China. Is there any evidence that there has been some 
retransplant of popular religion from practice in Taiwan back 
into Fujian, Guangdong, other places where people in Taiwan 
hail from originally?
    Mr. Weller. Yes. The very first thing that happened when 
people from Taiwan could go back to the mainland legally, and 
actually to a small extent before it was legal, is they went 
back to the mother temples of all the temples in Taiwan, the 
ones they had branched off of. That is big business. So a place 
like Meizhou, an island off Fujian, which is where the most 
important deity in Taiwan came from, just lives off this at 
this point. The temple is taking over the whole island.
    Then people have really interesting stories of going back 
and forth to the mother temple. They will bring texts, say, 
from Taiwan back to the mainland, and then they are published 
in the mainland, but now are claimed to be the ``authentic'' 
and original text. There is a huge amount of going back and 
forth there.
    And people debate unification or independence in Taiwan, 
but in a sense, on the ground, there is a kind of unification, 
but it is not a Taiwan-PRC unification, it is a pan-Southern 
Min civilization unification, Southern Fujian and Taiwan, which 
is the single linguistic and cultural area. That is where it is 
having a really powerful effect.
    Beyond that, I do not think there is much of a direct 
effect. I will tell you where I would guess it would have an 
effect, is these pietistic sects that I feel fairly sure are 
being spread underground, partly with help of these Taiwanese 
businessmen in places like Shanghai. But again, I speculate. I 
would be shocked if it were not true, but I do not really know.
    Ms. Thornton. I would like to add, in response to that 
question, that some of the cybersects that I have been looking 
at appear to have originated in Taiwan, or at least are openly 
operating in Taiwan, and then from there expanding their 
contacts in mainland China, although in an underground sort of 
way.
    One of the groups that I have been looking at goes by the 
name of Quanyin, or is more commonly called in mainland China, 
Guangyin Famen. That group was founded by a woman named Suma 
Qinghai, who is a Vietnamese woman of Han Chinese descent who 
married a German doctor, and then left him to go back to India 
to study with certain gurus in the Santmat tradition. She then 
went on to Taiwan, and studied there. I am not sure in exactly 
what context, but she then had a revelation and, I believe it 
was in 1992, created her own school for teaching the Santmat 
tradition. Suma Qinghai is now in the United States, but 
continues to operate from a base in Taipei and has expanded 
throughout mainland China from Taiwan.
    Mr. Foarde. Useful. Thank you. Susan, another round of 
questions? Please.
    Ms. Weld. Thank you very much. I am interested in the way 
in which social services and social organizations overlap with 
religious organizations. In Taiwan, the best examples are 
Buddhist organizations, which seem less focused on religion 
than on social service.
    Mr. Weller. I would call them religious.
    Ms. Weld. From what I remember you just said, those 
flourished after the lifting of the ban on religious 
organizations. Can you help us understand how that worked? In 
the new religious regulations in China there is a little window 
for establishing religious social service groups in a rather 
limited way. Will that enable China to replicate the success of 
Taiwan in this area? Many official texts in China now talk 
about how to get private groups to help with social service, 
which is a real problem now in many parts of China.
    Mr. Weller. Yes. That is a good question. I do think it is 
a window of opportunity. So the largest of these groups, and I 
think the earliest, the Ciji Gongdehui, the Compassion Merit 
Association, is run by a nun, but is mostly a lay organization. 
They have stopped releasing membership numbers, but the last 
they did was something like 4 million people.
    And remember, Taiwan's population is only 23 million, or 
something like that. That is a huge number of people, with 
branches in, I do not know, 100 countries, and at least a dozen 
American cities, based on philanthropy. The idea is initially 
medical, and then other kinds of philanthropy. They run, I 
think, the largest Asian bone marrow transplant database, for 
instance. That, in the world of filial piety, is a tough thing 
to do. That is not an easy thing to get going. So, they really 
do a lot of great work. So they started in 1966, well before 
democratization, but they start in Hualian, a minor, poor city 
on the poor side of Taiwan, the east coast, but they do this 
welfare stuff.
    The government realizes there is a lot of good PR in this, 
so foreign groups, by the early 1980s, anyway, when I was in a 
delegation that traipsed out there--in fact, that is how I 
first started doing research on them --were showing them off to 
people. They built hospitals. I mean, they did all kinds of 
stuff. So, the government really liked this. That exact window 
is, in fact, opening in China because China wants to privatize 
these kinds of functions, and they would love NGOs to pick that 
up. In fact, Ciji is incorporated as an NGO within Taiwan's 
legal framework for such things, and in fact they are active in 
China. The deal was they would not try to recruit or start any 
branches, but they were certainly welcome to come and give aid. 
I have even had Chinese say, oh, Zhengyan, who is the nun who 
runs it, she is like Taiwan's Lei Feng, who you must know is a 
do-gooder mainland Chinese culture hero. So, there is an 
opportunity there.
    A few Buddhist organizations in China are trying to pick up 
on it, although none nearly as effectively as these Taiwan 
groups. The Nanpotuoshan, a very important Buddhist temple in 
Xiamen, for instance, is doing some work like this. Sociologist 
David Wang has written or done some research on that. So, there 
are a few. I think that is a real window of opportunity and 
that may be an important growth area. It is certainly something 
to watch for religion.
    Mr. Foarde. Do any of the other panelists have questions? 
All right, let me recognize Kate Kaup for the last set of 
questions for this afternoon. Kate.
    Ms. Kaup. We have talked some about regional variations in 
enforcing policy. I found in my own work on ethnic affairs that 
in some areas the Ethnic Affairs Commission is seen as an 
advocate for the minority groups, while in other areas it is 
seen more as a tool of the state for imposing policy. I would 
expect similar variations in popular perceptions of the 
Religious Affairs Bureau [RAB]. Who staffs the Religious 
Affairs Bureaus? Have you found that the general population 
tends to view the RAB as advocates for religious believers or 
more as state representatives sent to impose government 
controls?
    Mr. Ownby. I can speak briefly and partially about that. My 
information is dated, but when I was in Henan doing limited 
research on unofficial Christian communities, we often went 
through the local cadres of the Religious Affairs Department. 
They shared one thing in common, all of those cadres: they 
eagerly wanted to be doing something else. It was not that they 
had been punished, but they had not had the ambition to get 
elsewhere. This was just all over them. Some of them developed 
a minor interest in religion. Most of them did not, though they 
were in no way at that point, in Henan, defenders of religion, 
although some of them did recognize that Christian communities 
were easier to deal with than communities with no structure 
whatsoever. This did not make them, however, fans of religion, 
it just made them fans of that particular village.
    Mr. Weller. That is a question about variation, too. I have 
found a huge amount of variation. But I should preface this by 
reminding you that I am an anthropologist and have a real 
worm's eye view. High for me is a county, and for a Religious 
Affairs Bureau, that is low. There is huge variation there.
    In a largely Han place where religion is seen as a 
secondary or tertiary kind of phenomenon, at the county level, 
there has to be a Religious Affairs representative, but it is 
usually somebody whose real job is something else and he just 
has an extra sign on his door, and is not particularly 
knowledgeable, is not particularly enthusiastic, but does his 
job as a good cadre. If you go out in the Hui areas or 
something like that, you do get sometimes the Ethnic Affairs 
and the Religious Affairs that are combined in a single person, 
sometimes they are separate, but they work closely with each 
other. There, it is an important job. My sample was random and 
accidental, but I have been fairly impressed at how 
knowledgeable those people were.
    In fact, in areas where religion is not minority religion 
and not so much of an issue, the people that actually know 
anything about religion are not the Religious Affairs people, 
they tend to be the Cultural Affairs, kind of folklore 
collection, those kinds of people. With the work that is being 
done now, there is a lot of kind of folkloric work happening on 
popular religion. It is those sorts of people and never the 
Religious Affairs people.
    Mr. Foarde. Does anyone else have a comment?
    [No response].
    I see that the shadows are getting long. As we have 
experienced in this room many times in the past, I think the 
mean temperature has gone down about 12 degrees since we 
started. So I admire our three panelists and all of you who 
have stayed here and started to freeze. So, all this suggests 
that it is probably time to wrap up for this afternoon.
    So, on behalf of Senator Chuck Hagel, our chairman, and 
Congressman Jim Leach, our co-chairman, and the Members of the 
Congressional-Executive Commission on China, thanks to our 
three panelists, David Ownby, Rob Weller, and Patricia 
Thornton, and to all who came to attend this afternoon. Please 
watch the Web site and sign up for our Web-based Internet news 
list to learn about the next roundtables and hearings that we 
will be doing through the rest of the spring and summer.
    Thanks very much. Good afternoon.
    [Whereupon, at 3:29 p.m. the roundtable was concluded.]


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                   Prepared Statement of David Ownby

                              May 23, 2005

    If it were possible to measure such things, I would wager that the 
growth rate in popular participation in both official and unofficial 
religions in China has been equal to if not greater than the growth 
rate of the Chinese economy over the past twenty-five years. Both a 
flourishing economy and a lively religious scene have resulted first 
and foremost from an important redefinition of the state in the period 
which followed the death of Mao Zedong in 1976. While the Chinese state 
remains decidedly authoritarian, it has largely withdrawn from daily 
micromanagement of many economic and social affairs, thus allowing a 
greater latitude in almost any sphere except the strictly political 
than at any time since 1949. This latitude, which has translated into 
the virtual absence of Party control in many parts of village China, 
has done much more to foster the expansion of religious activity--and 
in particular unofficial religious activity--than any formal policy 
statement, although the latitude can of course be reduced or revoked at 
will by authorities.
    The religiosity of contemporary China is often explained by 
reference to the failure of the Maoist revolutionary impulse: according 
to this view, religion has filled the ``spiritual vacuum'' created by 
the failure of communist ideology. This explanation is dangerously 
misleading. Not only does it perpetuate the positivist error of 
imagining that a ``normal'' society will have no need for religion, it 
also seriously underestimates the profoundly religious character of 
traditional Chinese society (not to mention the religious overtones of 
the cult of Mao Zedong and other aspects of the Chinese revolutionary 
experience). In other words, while the level of religious activity 
observed in China since 1980 may be new to the People's Republic of 
China, it is by now means new in the broader context of Chinese 
history. The Chinese are not ``newly religious.'' Rather the Chinese 
have been permitted once again to practice religions which have been 
suppressed since 1949, and even to create new religions, such as the 
Falun Gong, although this latter story is somewhat more complicated.
    One of the reasons that it is hard to come to terms with religion 
in China is that the Chinese themselves have a hard time understanding 
and explaining their own religious heritage and contemporary landscape. 
There was no Chinese word for ``religion'' until the late nineteenth 
century when it was imported from the West (via Japanese translations) 
together with a host of other modernist concepts through which the 
Chinese attempted to understand their past, present, and future. As 
part of an effort to build a modern state, Chinese reformers sought to 
define what a ``modern'' religion might be, and chose to limit the 
designation ``religion'' to world-historical faiths having well-
developed institutions, clergy, and textual traditions. Every Chinese 
constitution since that of 1912 has adopted this definition, and has 
even listed the five creeds worthy of the label ``religion'' in China: 
Buddhism, Daoism, Islam, Protestantism, and Catholicism. With one 
stroke of the pen, the modern Chinese state thus relegated ancestor 
worship, local cults, pietistic sects--in short, the religious 
activities of the vast majority of the Chinese people--to the status of 
``feudal superstitions'' to be at best tolerated and at worst violently 
suppressed. It would never have occurred to a victim of this 
discrimination to demand that his ``freedom of religion'' be respected, 
because ``religion'' had been defined in such as way as to exclude his 
spiritual practice. Even now, if you approach worshipers at a popular 
shrine in China and ask them if they are happy to be able to practice 
their ``religion,'' they will stare at you blankly, because the word 
itself continues to have no meaning other than that imposed by the 
state.
    The history of Falun Gong, and of the larger qigong movement from 
which Falun Gong emerged, illustrates that the importance of this point 
is more than simply academic. The qigong boom was a mass movement 
involving tens if not hundreds of millions of Chinese from the early 
1980s through the early 2000s. Led by charismatic masters, the movement 
promised miracle cures and supernormal powers, to be obtained through 
physical exercises, meditation, visualisation, trance, and/or speaking 
in tongues. Parallel phenomena in the West would be called new 
religious movements or new age movements. The Falun Gong emerged in 
1992, toward the end of the boom, and was in fact one of the least 
flamboyant of the schools of qigong. The qigong boom and the Falun Gong 
were not only tolerated but actively supported by the Chinese state and 
the Chinese Communist Party, many members of which were enthusiastic 
practitioners of qigong and Falun Gong. Why, it is worth asking, would 
Chinese authorities endorse a mass movement with spiritual and 
supernatural overtones?
    The answer is that the Chinese authorities were blinded by their 
own definition of ``religion.'' Qigong was first created in the 1950s 
by part of the Chinese medical establishment concerned with the 
Westernization of medical practice in China. Chinese medicine has a 
long and rich tradition, and is closely linked to religious and 
spiritual disciplines in the way that ``holistic'' medicine is in the 
modern West. Champions of traditional Chinese medicine in the 1950s 
borrowed healing techniques from what we might call ``medicine men,'' 
modernized and ``sterilized'' these techniques by removing the 
superstitions which surrounded them, and created a new therapeutic 
tradition which became part of the traditional Chinese medical 
curriculum. These efforts were encouraged by Chinese authorities; 
indeed, /qigong/ in the 1950s and 1960s was chiefly practiced in 
sanatoria where China's leaders took refuge to have their aches and 
pains treated by trained personnel well-versed in these neo-traditional 
techniques.
    After the Cultural Revolution (1966-76), however, qigong left the 
sanitarium and reemerged in public parks in Beijing and other Chinese 
cities, where charismatic masters taught traditional, ``magical'' 
healing techniques to anyone desiring such treatment. Such activities 
were frowned upon by authorities until scientists working in respected 
universities and research centers purportedly discovered, in the late 
1970s, that qi possessed a material existence which could be measured 
by scientific instruments. If qi had scientific status, then qigong did 
as well; it could not be considered superstitious (science having 
``proved'' its existence) and no one thought to characterize qigong as 
``religious'', since religion by definition meant churches, priests, 
and scriptures. As a result, the Chinese state gave its blessing to 
qigong, believing that it was witnessing the birth of a uniquely 
Chinese science, and the massive qigong boom followed as a matter of 
course.
    Few of the millions of those participating in the /qigong/ boom 
were aware of the ``religious'' dimensions of what they were doing, 
although many /qigong/ masters explained the workings of /qigong/ by 
reference to traditional spiritual and religious discourses, and a very 
common element of /qigong/ practice was an emphasis on traditional 
moral behavior as a necessary complement to the more esoteric 
techniques. Many people were drawn to /qigong/ by its promise to heal 
their illness or assuage their pain. Others were drawn by a fascination 
with supernormal powers. I would also argue that many practitioners 
drew comfort from being able to reconnect with traditional popular 
cultural and spiritual practices which had been banned for many years. 
The /qigong/ movement as a whole demonstrates the readiness of an 
important part of the Chinese population to embrace ideas and practices 
which we would label as spiritual or religious, particularly when such 
ideas and practices are related to concerns of the human body. I would 
emphasize as well that /qigong/ practitioners included many members of 
the educated urban elite; this was not primarily a movement of the 
rural illiterate. I would also note that /qigong/--and Falun Gong--
readily found an audience on Taiwan, which should illustrate that we 
should not see them solely as a reaction to Communism, the failure of 
Mao's revolution, or the particular challenges of life in today's fast-
paced and increasingly unequal Chinese economy.
    Falun Gong emerged at a moment when the /qigong/ boom had begun to 
attract criticism for its overemphasis on supernatural powers and other 
``parlor tricks.'' This is one reason that Falun Gong founder Li 
Hongzhi emphasized that he was teaching /qigong/ at a higher level than 
that of miracle cures and magic tricks. Another difference between 
Falun Gong and other schools of /qigong/ evolved as a result of Li's 
decision to leave China in early 1995: instead of emphasizing master-
disciple contact through lectures delivered by the master (Li gave many 
such lectures in China between 1992 and 1994) or stressing the 
relationship of a practitioner to the Falun Gong organization, Li came 
to underscore the importance of his writings. Even if the master was 
not there, practitioners were to establish a personal relationship with 
him via the study of his scriptures, and to achieve corporal and moral 
transformation through the lessons learned therein and through the 
personal interventions of the master (which occurred on a spiritual 
plane unobservable by the individual practitioner). In hindsight Falun 
Gong may appear more ``religious'' than some other schools of /qigong/, 
but in my view this explains neither the popularity of Falun Gong (it 
was not the largest of /qigong/ schools) nor its eventual conflict with 
the Chinese state. Practitioners were drawn to Falun Gong for the same 
reason that they had been drawn to other /qigong/ schools; in fact many 
Falun Gong practitioners had tried other forms of /qigong/ before 
discovering Falun Gong. As for the conflict with the Chinese state, 
this was the result of the erosion of support for /qigong/ among 
Chinese authorities and the spectacular miscalculation of Li Hongzhi in 
authorizing the demonstration at Zhongnanhai on 25 April 1999. The 
consequences of this misjudgment have been disastrous not only for 
Falun Gong but for all forms of official and particularly unofficial 
religions in China.
    It is difficult to generalize about these unofficial religions. /
Qigong/ and Falun Gong were the only forms of unofficial religion to 
establish nationwide organizations and to enjoy the support of Chinese 
authorities. All other forms of unofficial religion achieve at best a 
localized presence (although some larger networks may exist) and a 
marginalized, liminal status. In rural areas, particularly, the 
diminution of state presence in the face of persistent poverty and 
under development (more pronounced in some regions than in others) has 
encouraged the revival of local cults, pietistic sects, and secret 
societies. The revival of local cults and ancestral temples in South 
and Southeast China has been investigated and documented to some degree 
by Western (and some Chinese) scholars. We know much less about 
conditions in other parts of China, as information is largely 
anecdotal. These organizations appear to have resumed the roles they 
played in traditional China, providing a framework for social 
cooperation, offering miracle cures in the absence of adequate medical 
care, spiritual solace in the absence of hope for a better tomorrow.
    We know somewhat more about the unofficial Christian movement than 
about local cults, pietistic sects, and secret societies, because 
Western missionaries attempt--with some success--to follow the fortunes 
of this movement. Often referred to as the ``home church movement'', 
because services are held in believers' homes rather than in a church, 
unofficial Christianity has become important particularly in certain 
regions (Fujian, Zhejiang, Henan), and exists in an uneasy relationship 
both with the state-approved Christian churches and with the state. I 
did a limited amount of fieldwork among such groups in rural Henan in 
the mid-1990s. My impressions were that many such groups traced their 
origins to pre-1949 communities; often the revival of the Christian 
community was the work of a charismatic elderly man or woman whose 
faith had survived the intervening years. In addition, the movement is 
nourished by external and internal missionaries. Overseas Chinese from 
Hong Kong, Taiwan, and North America take advantage of the greater 
openness of today's China to smuggle in bibles and to spread the 
gospel. Itinerant native evangelists travel from congregation to 
congregation within China, creating ``revival-like'' conditions in some 
areas.
    During the worship services that I attended, I noted the same 
emphasis on the healing power of faith which also motivated many /
qigong/ practitioners. Christianity, like other Chinese religions, must 
demonstrate its practical power and efficacy if it is to win followers, 
and many worship services in rural Henan included ``witness 
statements'' from members of the congregation whose aches and pains had 
been assuaged through the power of prayer or through other divine 
interventions. The church also clearly provided a sense of community, 
particularly in villages not otherwise bound together through family or 
other ties. Much of rural China is dangerously poor, under-organized 
and under-serviced. Christians were clearly grateful to their local 
church for the limited protection it afforded them in an otherwise 
bleak world.
    The mid-1990s, when I did my fieldwork in Christian villages in 
Henan, coincided with a period of general latitude in state attitudes 
toward religion; indeed, I would not have been able to do such 
fieldwork during a less open period. Although most local cadres with 
whom I spoke were scornful of religion, some openly admitted that 
Christian villages were much easier to ``manage'' than non-Christian 
villages: such villages possessed a clear leadership structure which 
was respected by most villagers, and this village leadership was 
predisposed to cooperate with state authorities, if only because their 
marginal status meant that they had little choice. As a result, many 
Christian villages were more cooperative in the implementation of state 
policies on birth control, for example, than were non-Christian 
villages. I recall being impressed by this odd marriage of convenience, 
and believing at the time that I was perhaps witnessing the birth of a 
new ``civil society'' in rural China.
    The anti-Falun Gong campaign has surely aborted such possibilities, 
at least for the foreseeable future. The latitude which had marked 
state practice on matters of religion disappeared immediately with the 
onset of the campaign, and the state reiterated with a vengeance its 
discourse on the proper definition and role of religion in modern 
China--the same discourse defended by the Chinese state since the 
beginning of the twentieth century. On paper, this discourse ironically 
defends ``real religions'' as conservative bastions of social 
stability, but in practice, all religions have been on the defensive 
since the summer of 1999, when the campaign against the Falun Gong 
began. In the fall of 2000, I attended, as a ``foreign expert'' on 
Chinese secret societies and popular religion, an international anti-
Falun Gong conference hosted by the Chinese state in Beijing. Among the 
many sad aspects of this occasion, perhaps the saddest for me was the 
intervention by a leading member of the Nanjing Theological Seminary, 
an elderly, well-educated, dignified, decent Chinese Christian who had 
devoted his life to defending his faith and his flock, but who felt 
compelled not only to denounce Falun Gong, but also to denounce the 
Christian home-church movement. His motivation was to attempt to draw a 
clear line between the state's definition of religion--to which his 
seminary obviously belonged--for fear of being tarred with the same 
brush that had blackened the image of Falun Gong, then other schools of 
/qigong/, and finally anything that smacked of ``feudal superstition.''
    Long term trends concerning the fate of unofficial religion in 
China are contradictory. On the one hand, the Chinese state seems 
unlikely to modify its stance on religion in favor of a greater 
openness to popular or unofficial religion, and can easily identify 
other modern states with similar postures--France comes to mind, for 
example--as an additional justification for this rigidity. On the other 
hand, the Chinese state has neither the resources nor the political 
will to turn back the clock and to reimpose Maoist-like controls on 
daily activities and popular consciousness. From this perspective we 
can expect cycles of greater and lesser latitude, perhaps a slow, 
secular movement toward openness, but perhaps not--much will depend on 
particular unofficial religious movements, on particular Chinese 
leaders, and on China's relationship with the outside world. Indeed, 
among of the most important changes on this front since the end of the 
Maoist era are China's engagement with the world economy, China's 
emergence as a geopolitical power in East Asia, and the growth of a 
vocal, educated, and materially well-off Chinese Diaspora in North 
America, Australia and Europe. All of these factors influence China's 
policy toward religion--both official and unofficial.
    The impact of the new Chinese Diaspora is clearly illustrated by 
the response of Falun Gong practitioners outside of China to the 
Chinese campaign of suppression. To the chagrin of the Chinese state, 
these practitioners--particularly but not exclusively in North 
America--have proven extremely adept at using the cybertools provided 
by advances in communication technology to challenge the campaign of 
suppression within China and to supplant the negative image of Falun 
Gong as depicted by the media in China. These initiatives include web 
sites, web-based newspapers, and hacking into cable and even satellite 
television transmission within China. On the Chinese-language version 
of Clear Understanding/Minghui, the main Falun Gong web site for 
veteran practitioners, one finds an abundance of technical information 
on the use of proxies and on other ways to circumvent the attempts by 
the Chinese state to control the Internet within China, as well as 
videoclips that can be downloaded onto VCDs for ``guerrilla 
distribution'' within China. Falun Gong practitioners outside of China 
have also been adept at adopting the Western discourse on freedom of 
thought and freedom of religious belief (although neither is a basic 
Falun Gong ``value'' per se) and using these discourses to influence 
public opinion and political decisions in the West. Although such 
efforts may not suffice to resurrect Falun Gong in China, they remain 
nonetheless immensely impressive (when compared, for instance, with the 
efforts of expatriot Chinese democracy activists), and illustrate that 
the Chinese community outside of China will almost certainly play an 
important role in the evolution of such issues in China proper. This is 
doubly important because a significant number of Chinese immigrants to 
the West have joined Christian churches, which has undoubtedly 
sensitized them to the fate of their Christian brethren in China.
                                 ______
                                 

               Prepared Statement of Patricia M. Thornton

                              May 23, 2005

    The dramatic resurgence of popular interest in religious traditions 
and spiritual practices during the post-Mao reform era has been a 
continuing source of concern for both central and local authorities in 
the PRC. The opening of Chinese markets to foreign goods and Chinese 
borders to international exchanges, the dismantling of Mao-era 
institutions and general relaxation of central political controls, all 
helped to set the stage for widespread religious revival. Syncretic 
sects of various types have emerged in large numbers in recent years, 
many with ties to traditional religious groups that were largely 
suppressed during the early years of Communist Party rule. At the same 
time, the development and availability of high technology resources--
including fax machines, cell phones, text messaging systems as well as 
the internet--has created new resources that facilitate both 
communication and social mobilization, culminating in a new type of 
threat to the current regime. Pre-revolutionary spiritual traditions, 
resurrected, remixed and retransmitted to a larger audience via new 
information technologies, have resulted in unique hybrid form of social 
mobilization that I refer to as cyber-sectarianism.\1\
---------------------------------------------------------------------------
    \1\ ``The New Cybersects: Resistance and Repression in the Reform 
Era,'' in Elizabeth Perry and Mark Selden, eds., Chinese Society: 
Change, Conflict and Resistance (second edition) (London and New York: 
Routledge, 2004), pp. 247-270.
---------------------------------------------------------------------------
    In the eyes of many Chinese authorities, the confluence of these 
three trends during the post-Mao reform era--the simultaneous 
relaxation of political controls on a number of fronts, the resurgence 
of popular interest in spiritual and religious practices, and the 
development of new information technologies--has created a virtual 
``perfect storm'' for internet-based dissent against the current 
regime: highly sophisticated transnational networks of committed 
political and religious dissidents that continue to expand and 
diversify as they challenge the leadership of the Party and the state 
on several fronts. The most successful of the new Chinese cybersects 
combine web-based strategies of text distribution, recruitment and 
information-sharing strategies with multi-faceted international media 
campaigns and periodic but high-profile episodes of protest both in- 
and outside the PRC. Funded at least in part by overseas Chinese 
communities based in other Asian and Western nations in which they 
operate more openly, some of these sects are pooling their resources, 
both with other like-minded religious or spiritual groups as well as 
with other dissident organizations based abroad. Like the internet 
itself, upon which they have relied upon so heavily in their recent 
development and expansion, the new cybersects have morphed into far-
flung transnational networks in which political and religious 
dissidents seek and secure the support of international authorities and 
non-governmental organizations to frame issues and pursue various 
political agendas. Elements of their organizational structure and modes 
of operation are also in evidence in other marginalized or illegal 
organizations across the globe, including underground criminal gangs, 
terrorist networks and religious fundamentalist sects of all stripes. 
Yet what is unique about these new Chinese cybersects is their reliance 
upon the internet and related high-tech communication strategies to 
blend spiritual or religious concerns with anti-regime messages and 
activities.
    The ability of these new cybersects to pursue their goals rests in 
large part upon the existence of highly dispersed small groups of 
practitioners that remain anonymous within the larger social context 
and operate in relative secrecy, while still linked remotely to a 
larger network believers who share a set of beliefs, practices and/or 
texts, and often a common devotion to a particular leader. Overseas 
supporters provide funding and support; domestic practitioners 
distribute tracts, participate in acts of resistance, and share 
information on the internal situation with outsiders. Collectively, 
members and practitioners construct viable virtual communities of 
faith, exchanging personal testimonies and engaging in collective study 
via email, on-line chat rooms and web-based message boards.
    Perhaps the best-known Chinese cybersect is the group commonly 
referred to as the Falun Gong, also known as Falun Dafa, which at its 
height claimed an estimated 70 million adherents in mainland China. Li 
Hongzhi, the enigmatic founder of the movement, created his unique 
system of qigong--a traditional form of meditation involving particular 
postures and bodily movement--by incorporating lessons from both Daoist 
and Buddhist teachers. By his own account, Li retired from his position 
at the Changchun Cereals and Oil Company in 1991 and began teaching his 
method to the broader public the following year, at the peak of what 
was widely acknowledged to be a qigong craze in mainland China. The 
main principles of the movement include the cultivation of the virtues 
of zhen, shan, ren--sincerity, compassion and tolerance--combined with 
daily qigong practice sessions in order to eliminate bad karma from the 
body.
    Despite the fact that Li moved the United States in 1996, the 
movement was virtually unknown outside of mainland China until April 
25, 1999, when ten thousand Falun Gong practitioners staged a mass sit-
in in front of the walled leadership compound in Beijing. The massive 
but peaceful demonstration appeared to take the police by surprise, who 
appeared to be at a loss as to how to handle such a large group. The 
protest lasted for more than 14 hours before the practitioners 
voluntarily vacated the site. Weeks later, when Li was asked how the 
group managed to pull off such a large-scale event, he confirmed that 
the group had relied on the internet to organize the protest.\2\
---------------------------------------------------------------------------
    \2\ Transcript of Li Hongzhi's meeting members of the press in 
Sydney, Australia on May 2, 1999, at http://www.falundafa.org/fldfbb/
news990502.htm.
---------------------------------------------------------------------------
    Not surprisingly, central leaders officially banned Falun Gong less 
than two months later, launching a major campaign to wipe out all 
``heretical sects'' (xiejiao). Two of the less well-known sects also 
targeted during the crackdown, which continues in full force to this 
day, are the qigong sect Zhonghua Yansheng Yizhi Gong [hereafter Zhong 
Gong], and the Surat Shabd Yoga- or Sant Mat-inspired Quan Yin Method, 
better known in China as Guanyin Famen. Prior to the 1999 ban, all 
three of these groups had established formal corporate offices in 
mainland China, either under the guise of privately owned companies or 
research societies. Some of these corporations produced and sold goods 
associated with the spiritual practices of the group in question; 
Chinese government officials have accused these enterprises of turning 
excessive profits at the expense of believers. During the crackdown 
that officially began in July 1999, the offices, schools and other 
facilities of all three groups were forced to close down, their assets 
confiscated and their key personnel detained or arrested.
    Two of the groups in question quickly turned to high-tech methods 
to protest the ban. Zhang Hongbao, the Zhong Gong founder, responded 
with the so-called ``Action 99-8'' campaign, encouraging his supporters 
to fax, post and distribute two letters of protest against the ban 
apparently penned by Zhong Gong members who were also public security 
personnel. In a move reminiscent of the mobilization strategies used by 
pro-democracy supporters during the 1989 Tiananmen demonstrations, in 
August 1999 the two documents were distributed to a hundred thousand 
local police substations, two thousand county police offices, three 
hundred municipal public security bureaus, 31 provincial public 
security departments and ten thousand departments in the judiciary as 
well.\3\ Shortly thereafter, Zhang Hongbao and an associate fled to 
Thailand and then to Guam, where both applied for political asylum in 
the United States. Likewise, Falun Gong practitioners continued to 
stage public protests, increasingly around state-planned celebrations 
of major holidays and/or other high-profile political events.
---------------------------------------------------------------------------
    \3\ Guan Kaicheng, ``Zhong Gong `99.8' quanguo xingdong neimu 
baoguang'' [Exposing Zhong Gong's behind-the-scenes national `99.8' 
action] (February 2, 2000), http://www.zgzg.net; see also Wei Zhen, 
``Zhong Gong 199.8' quanguo xingdong zhuandi de xin zhi yi,'' [The 
first letter transmitted by followers to the whole country during 
Action 1999.8'] and Li Kejiang, ``Zhong Gong 1999.8' quanguo xingdong 
zhuandi de xin zhi er'' [The second letter transmitted by followers to 
the whole country during Action `99.8'], and other relevant documents 
at http://www.zgzg.nets.
---------------------------------------------------------------------------
    As the repression of so-called ``heretical sects'' intensified on 
the Chinese mainland, all three groups shifted the brunt of their 
organizational work in the PRC to virtual reality. The Foreign Liaison 
Group of the Falun Dafa Research Society had established a protocol for 
monitoring Falun Gong's presence on the web as early as 1995, and 
relied increasingly on the internet in the aftermath of the ban;\4\ the 
main /Zhong Gong/ group site was established some five years later, in 
April 2000, and carried information on the situation of its followers 
during the crackdown. The group known as /Quan Yin/ also established a 
ring of websites that publish and archive newsletters on-line, all of 
which carry regular updates of their activities both in- and outside of 
mainland China.
---------------------------------------------------------------------------
    \4\ The Foreign Liaison Group of the Falun Dafa Research Society, 
``Falun Dafa's Transmission of Internet Notice'' (June 15, 1997), 
http://www.falundafa.org/fldfbb/gonggao970615.htm.
---------------------------------------------------------------------------
    Over the past several years, all three groups have developed 
elaborate virtual locations where they house downloadable texts of 
lectures and speeches, often in multiple languages by their leaders, 
photographic images of both leaders and practitioners, and information 
about the situation of their practitioners in mainland China. Some 
maintain electronic bulletin boards and email distribution lists that 
provide interested parties with newsletters and updated news 
information. These continue to serve as the central source of 
information for practitioners across the globe, helping to organize 
collective actions of various kinds, as well as to provide venues for 
sharing religious experiences within the community of the faithful. 
Despite the attempts of mainland authorities to block access to the 
websites, practitioners continue to evade controls by using untraceable 
web-based email accounts accessed in internet cafes, proxy servers and 
new anonymizing software. Most of the websites in question provide 
instructions on how to evade official surveillance by using proxy 
servers to log on in order to view or download banned information.
    Several of these sites link on-line to networks of members of other 
suppressed religious or ethnic minorities, and political dissidents. 
For example, when Zhong Gong leader Zhang Hongbao began a hunger strike 
to press for his release from detention in Guam while awaiting transfer 
to the United States, several overseas Chinese dissident 
organizations--including the Free China Movement, the Chinese Democracy 
Party and the Joint Conference of Chinese Overseas Democracy Movement--
rallied to his cause, organizing a press conference to draw attention 
to his plight.\5\ After winning his bid for political asylum in the US, 
Zhang returned the favor by joining forces with the banned Chinese 
Democracy Freedom Party, and by establishing an organization designed 
to push for the release of political dissidents from mainland Chinese 
jails.\6\ The virtual links between Zhong Gong and other overseas 
organizations, most notably Liu Siqing's Hong Kong-based Information 
Centre for Democracy and Human Rights, were quite close in the past.\7\
---------------------------------------------------------------------------
    \5\ U.S. Newswire, `` `Campaign to Free Master Zhang Hongbao' to 
Hold Press Conference Dec. 20,'' (December 19, 2000).
    \6\ The group established by Zhang Hongbao and Yan Qingxin, the 
colleague who secretly fled the mainland with him, is ``The Chinese 
Anti-Political Persecution Alliance'' [Zhongguo fanzhengzhi yapo 
tongmenghui]; for information on Zhong Gong's involvement with the 
Chinese Democracy Freedom Party, see http://www.zgzg.net.
    \7\ The Information Centre was established by former Tiananmen 
Square student activist Liu Siping after he fled mainland China in 
1989.
---------------------------------------------------------------------------
    With the struggle between Chinese authorities and these syncretic 
organizations moved at least in part to virtual reality, the banned 
cybersects have adopted what some have called ``repertoires of 
electronic contention'' \8\--including the use of websites and email to 
mobilize participants for conventional demonstrations, as well as 
``hactivism'' (tactics of disruptive electronic contention) and even 
cyber-terrorism (which may involve physical harm done to groups and 
individuals by the disruption of power grids, traffic control and other 
systems of resource delivery and public safety). With the help of 
supporters based abroad, underground Falun Gong cells in greater China 
have managed hack into and hijack the satellite uplink feed to Central 
China Television [CCTV] on numerous occasions and broadcast pro-Falun 
Gong video messages television stations across the PRC. In recent 
years, Chinese authorities have accused members of various undergrounds 
sects of sabotaging or defacing public transportation systems, and even 
of obstructing the government's attempts to control the spread of SARS. 
Chinese public security officials have also responded in kind: for 
example, within days of the July 1999 decision to ban the movement, 
several Falun Gong website operators abroad complained that they were 
being targeted by a ``denial of service'' attack that was shown to have 
originated from the Beijing offices of the Public Security Ministry's 
Internet Monitoring Bureau.\9\ Falun Gong followers and other 
dissidents have also accused Chinese officials surveilling and 
penetrating on-line sites where dissenters tend to congregate in order 
to engage in various forms of cyberespionage and entrapment schemes.
---------------------------------------------------------------------------
    \8\ Sasha Costanza-Chock in ``Mapping the Repertoire of Electronic 
Contention,'' in Andrew Opel and Donnalyn Pompper, eds., Representing 
Resistance: Media, Civil Disobedience and the Global Justice Movement 
(Praeger, 2003).
    \9\ Peter Svensson, ``China Sect Claims Sites Under Attack,'' 
Associated Press online report, July 31, 1999.
---------------------------------------------------------------------------
    This increased level of surveillance and repression has not only 
not eliminated the new Chinese cybersects, but has in fact intensified 
their reliance upon web-based high-tech strategies of contention, which 
has arguably made them more capable of carrying out difficult, 
ambiguous and complex tasks. Research on similar covert networks has 
found that they are far more effective than the secret societies of 
decades ago precisely because of the advent of computer-based 
communications tools: whereas in the past, communication and 
coordination within covert networks required the use of buffers to 
maintain secrecy at the cost of lowering communicative effectiveness, 
the information-processing capabilities of current technologies, 
combined with the anonymity of virtual reality, has eliminated this 
obstacle.
    Yet the move to virtual reality has not been without cost to the 
Chinese cybersects in question. The high-speed efficiency and 
decentralized organizational capacity of web-based communications has 
created some institutional casualties, even within the enormously 
popular Falun Gong network: the decentralization of the web-based 
movement has likely contributed to splintering and fragmentation of its 
membership. Some underground Falun Gong cells in mainland China have 
purportedly been overtaken by charismatic ``tutors'' or 
``facilitators'' to whom practitioners can more readily relate, or now 
follow scriptures neither written nor approved by Li.\10\ Some 30-odd 
members of Falun Gong's Hong Kong chapter experienced a collective 
revelation on Buddha's birthday that a 37-year old activist in their 
midst was in fact the ``Lord of Buddhas.'' A former owner of a trading 
company, Belinda Pang announced that all of Li Hongzhi's most recent 
revelations must be false because he had already clearly left to 
``quietly watch the practitioners and people in world'' perched atop a 
cliff somewhere in the United States, presumably leaving her in 
control.\11\ Since he was granted asylum in the United States, Zhong 
Gong leader Zhang Hongbao has been engaged in an on-going string of 
lawsuits against a variety of his former associates, claiming that they 
have attempted to wrest control over the movement's membership and 
assets. While such power struggles are by no means unheard of in more 
traditional religious orders, such issues seem destined to revisit the 
banned cybersects in the future, particularly as adherents across the 
globe are encouraged to post and share their personal revelations, 
visions and experiences on movement websites alongside those of their 
leaders.
---------------------------------------------------------------------------
    \10\ Craig S. Smith, ``A Movement in Hiding.''
    \11\ Craig S. Smith, ``Split Develops on Leadership of Sect,'' The 
New York Times, August 3, 2000, p. 10; Linda Yeung, ``A Buddha Called 
Belinda,'' South China Morning Post (July 27, 2000), p. 13.
---------------------------------------------------------------------------
    In conclusion, the internet may indeed invite broad-based 
participation by dissolving formidable boundaries, but it erects others 
that are no less imposing. The unequal distribution of technological 
expertise allows alternative hierarchies to emerge, creating a 
condition some have referred to as crypto-anarchy.\12\ Within newly 
emerging cybersects, technical and media wizards play a much greater 
role in defining the movement, sometimes rivaling that of the spiritual 
leadership. One astute observer noted that having been driven 
underground and on-line, Falun Gong had undergone ``a dark evolution'' 
that involved the emergence of ``a hard core of radicalized followers'' 
who were no longer dependent upon Li's guidance for the movement to 
grow.\13\ The high level of technological and public relations 
expertise required to keep such a group in working order requires 
considerable organizational skill that may well be in short supply 
among charismatic mystics, and the marriage between technological 
expertise and spiritual vision may not always be a harmonious one.
---------------------------------------------------------------------------
    \12\ For examples, see several of the essays in Peter Ludlow, ed., 
Crypto Anarchy, Cyberstates and Pirate Utopias (Cambridge, 
Massachusetts The MIT Press, 2001).
    \13\ Susan V. Lawrence, ``Faith and Fear,'' Far Eastern Economic 
Review, April 20, 2000, p. 16.
---------------------------------------------------------------------------
                                 ______
                                 

                 Prepared Statement of Robert P. Weller

                              May 23, 2005

    The great majority of Chinese religious activity has never been 
part of any broader organized church, and has never had much 
institutional existence above the local community. This continues to be 
true today, where people across China burn incense to gods and 
ancestors but have no affiliation with any of China's religious 
organizations. This kind of popular worship is by far the largest part 
of China's current religious resurgence, and also the most neglected. 
Officially, the government considers this the practice of ``feudal 
superstition,'' and such worship does not even receive the nominal 
guarantees of freedom to practice ``normal'' religion in the Chinese 
Constitution.
    In this statement I will very briefly consider the history of this 
and other important forms of informal religion in China today. I will 
compare it to the situation in Taiwan, especially in the 1970s, when an 
authoritarian government made a similar attempt to create corporatist 
control of all organized religion, and to discourage practice of 
popular worship. Finally, I will consider the role of informal religion 
in Taiwan's democratization and construction of a civil society, and 
suggest possible implications for the People's Republic of China.

                            A BRIEF HISTORY

    Most popular religious practice in China focused around worship of 
ancestors and spirits of various sorts at community altars. The basic 
organization of this worship is well known by now, especially from 
numerous studies in Taiwan.\1\ Important features included community 
ownership of temples, widely variant deities sometimes known only 
locally, worship generally by individuals rather than congregations, a 
strong emphasis on votive requests, widespread use of spirit mediums, 
and involvement of Daoist or Buddhist priests usually only for major 
events. There were no sacred texts comparable to the Bible or the 
Buddhist and Daoist canons.
---------------------------------------------------------------------------
    \1\ For a general overview of the development of this field, see 
Meir Shahar and Robert P. Weller, ``Introduction: Gods and Society in 
China,'' in Unruly Gods: Divinity and Society in China, ed. Meir Shahar 
and Robert P. Weller (Honolulu: University of Hawai'i Press, 1996), 1-
36. For a very useful review of the literature on Taiwan, see Hsun 
Chang, ``Guangfu Hou Taiwan Renleixue Hanren Zongjiao Yanjiu Zhi Huigu 
[A Review of Anthropological Studies of Han Chinese Religion in Taiwan, 
1945-1995],'' Bulletin of the Institute of Ethnology, Academia Sinica 
81 (Spring 1996): 163-215.
---------------------------------------------------------------------------
    At the same time, China developed other traditions that were widely 
available. Buddhism and Daoism are the best known, and their priests 
were hired for nearly all large-scale popular ceremonies. By the Ming 
Dynasty (1368-1644), China had also developed a strong tradition of 
what Overmyer calls ``pietistic sects,'' which did not require the 
priestly virtuosity of the Buddhist or Daoist clergy, but did have a 
much stronger voluntaristic and congregational structure and a stronger 
textual emphasis than popular worship.\2\ The Chinese government from 
imperial times to the present has been highly suspicious of these 
groups, because a few fomented rebellions, most notably the White 
Lotus. The vast majority, however, remained peaceful.
---------------------------------------------------------------------------
    \2\ Daniel L. Overmyer , Folk Buddhist Religion: Dissenting Sects 
in Late Traditional China (Cambridge: Harvard University Press, 1976); 
David K. Jordan and Daniel L. Overmyer, The Flying Phoenix: Aspects of 
Chinese Sectarianism in Taiwan (Princeton: Princeton University Press, 
1986).
---------------------------------------------------------------------------
    The most important twentieth-century developments in China were 
political. Most religion of all kinds has struggled there throughout 
the century. The Republican government that took over from the final 
imperial dynasty in 1911 was dedicated to modernity. Some of the 
leaders were Christian, but the general attitude to religion was 
unfavorable. They saw it as a remnant from premodern times, 
embarrassing to their aspirations and draining valuable resources from 
the people. They looked with particular disfavor on popular worship, 
and instituted massive campaigns to convert temples to secular use.\3\ 
As is well known, attitudes in the People's Republic after 1949 were 
even harsher, and included periods of powerful religious repression.
---------------------------------------------------------------------------
    \3\ Prasenjit Duara, ``Knowledge and Power in the Discourse of 
Modernity: The Campaigns Against Popular Religion in Early Twentieth-
Century China,'' Journal of Asian Studies 50, no. 1 (1991): 67-83.
---------------------------------------------------------------------------
                         THE CURRENT SITUATION

    There has been a significant relaxation of attitudes toward 
religion in China since the 1980s, but even that is marked by periodic 
crackdowns (as after the Falungong demonstrations), a general feeling 
of distrust from many cadres, and a continuing lack of legal status for 
popular worship. In spite of the problems, the last two decades have 
seen a huge increase in religious activities of every type in China.\4\
---------------------------------------------------------------------------
    \4\ Popular worship in China remains badly understudied, but 
important recent works include Jun Jing, The Temple of Memories: 
History, Power, and Morality in a Chinese Village (Stanford: Stanford 
University Press, 1996); Kenneth Dean, Taoist Ritual and Popular Cults 
of Southeast China (Princeton: Princeton University Press, 1993); Lizhu 
Fan, ``Popular Religion in Contemporary China,'' Social Compass 50, no. 
4 (2003): 449-57; Chau, Adam Yuet. Miraculous Response: Doing Popular 
Religion in Contemporary China. Stanford: Stanford University Press, 
i.p.
---------------------------------------------------------------------------
    Christians have received the most attention; recent growth has been 
rapid by all accounts, although estimates of numbers vary widely. Even 
with the rapid growth, Christians remain a small minority of perhaps 5-
7 percent of the population. Organized Buddhism and Daoism were never 
large, but their clergy provided crucial services to the rest of the 
population. Both have been revived since the Cultural Revolution, and 
are again training a new generation. Pietistic sects also appear to be 
widespread, but they are thoroughly underground (especially since the 
repression of Falungong) and we have no reliable research on their 
current state. Popular worship is coming back more in rural than urban 
areas, and not equally across the country. In some areas, like Fujian, 
every village has rebuilt one or more temples. This is rarer in north 
China. Still, we have reports of active local worship across the entire 
country, and can guess that perhaps half the rural population is 
involved--that would be something like 300-400 million people, and far 
larger than any other religion.
    Legally, China has created space for religions that are officially 
recognized and institutionalized within a state-dominated corporatist 
framework. Two kinds of religious activity clearly fall outside of even 
that limited framework, however. First, some religions are condemned as 
``evil cults'' (xiejiao), a piece of imperial language that was brought 
back with the repression of Falungong. This includes essentially all of 
the pietistic sects, Falungong, and any institutionalized religious 
activity that falls outside of state control. The second is activity 
that has very low levels of institutionalization, and thus does not 
count as ``religion'' at all--this is primarily all popular worship of 
gods. In many cases such activities are in practice permitted as local 
officials choose to turn a blind eye. Nevertheless, they are legally 
precarious, and subject to repression at any time.
    Religion has long been one of the most important reservoirs of 
social capital in Chinese villages. Outside of purely economic ties 
like land tenancy or trade, religion and lineage were the two kinds of 
ties that most linked together villagers. Most temples were controlled 
directly by community members, often through a committee whose leaders 
were chosen by lot. In many areas, temples had the ability to tax local 
households to support their rituals, and they frequently provided 
rallying points in times of need. In some ways, their difficult legal 
position has actually reinforced this role over the last decade or two. 
A recent dissertation on the delivery of public goods in China, for 
example, concludes that villages with strong temple committees tend to 
have better roads, newer schools, and other social goods.\5\ I will 
return to this point below.
---------------------------------------------------------------------------
    \5\ Lily Lee Tsai , ``The Informal State: Governance and Public 
Goods Provision in Rural China'' (Ph. D. diss., Harvard University, 
2004). On the recent growth of Christianity, see David Aikman, Jesus in 
Beijing: How Christianity is Transforming China and Changing the Global 
Balance of Power (Lanham, MD: Regnery, 2003).
---------------------------------------------------------------------------
                          LESSONS FROM TAIWAN

    Frontier conditions in Taiwan through the nineteenth century may 
have encouraged some uniquely local developments in the broad patterns 
of Chinese religion, but probably no greater than what characterized 
any part of China. The Japanese occupation of 1895-1945, however, 
repressed many forms of popular religion, pushed Buddhism to affiliate 
with Japanese sects, and began to promote Shinto toward the end of the 
period. The motivations were a combination--in part yet another version 
of the modernist attack on popular religion, and in part at attempt to 
draw Taiwan into Japanese religious culture.
    The Nationalists who came in 1945 undid much of what the Japanese 
attempted.\6\ Shinto disappeared, and a new Buddhist power structure 
that came over from the mainland ended any move in the direction of 
Japanese Buddhism. They tolerated popular religion, never repressing it 
in ways comparable to the mainland, but campaigning against it for 
decades as wasteful, superstitious, and unsanitary. As the island grew 
wealthier, however, people began to rebuild popular temples on ever 
more lavish scales, and ritual events at a few temples, especially the 
important temples to Mazu in the south, became important across the 
entire island. With democratization in the late 1980s, campaigns 
against popular religion ended, and politicians have often visited 
local temples in attempts to appeal to the electorate. The religious 
boom of the last three decades continues, and temples remain closely 
entwined with daily life.
---------------------------------------------------------------------------
    \6\ On the history of Buddhism through this period, see Charles 
Brewer Jones, Buddhism in Taiwan: Religion and the State, 1660-1990 
(Honolulu: University of Hawai'i Press, 1999).
---------------------------------------------------------------------------
    At roughly the same time as popular religion began to boom in the 
1970s, various forms of more organized religion also drew significant 
attention. The most striking initial growth occurred among the 
pietistic sects, including the Yiguan Dao and similar organizations. 
These groups had long been illegal under the KMT government, although 
their politics in Taiwan were in fact very conservative. Unlike temple 
religion, these sects were built of voluntary members who got together 
secretly for regular meetings, often featuring texts revealed by spirit 
possession. By the 1980s, when they were finally legalized, they 
claimed millions of members, including some of Taiwan's wealthiest 
entrepreneurs.
    Taiwan's new Buddhist groups--dedicated to the humanitarian aims of 
building a ``Pure Land on Earth''--also began around this time, and 
achieved huge followings by the 1980s and 1990s.\7\ Three of these 
groups now have massive global followings, accounting for millions of 
people. Much more than either temple worship or the pietistic sects, 
these groups have an explicit social mission, building hospitals, 
founding universities, bringing aid to the poor, and providing 
emergency relief around the world. They have not yet established 
independent branches in China, due to the political sensitivities, but 
they are active in delivering aid there.
---------------------------------------------------------------------------
    \7\ Hwei-syin Lu, ``Taiwan Fuojiao `Ciji Gongdehui' de Daode Yiyi 
[The Moral Significance of Taiwan Buddhist `Ciji Merit Association'],'' 
paper presented at the International Conference on Chinese Buddhist 
Thought and Culture (Shanxi University, July 12-18, 1992); Lin, 
``Zongjiao Yundong de Shehui Jichu--Yi Ciji Gongdehui Wei Lie [The 
Social Base of a Religious Movement--the Example of the Compassion 
Merit Society].''; Chien-yu Julia Huang, ``Recapturing Charisma: 
Emotion and Rationalization in a Globalizing Buddhist Movement from 
Taiwan'' (Ph. D. diss., Boston University, 2001).
---------------------------------------------------------------------------
    Taiwan's democratization in 1987 ended political campaigns against 
temple worship, opened up space for a new Buddhist-based social 
philanthropy, and legitimized pietistic groups. Just as importantly, it 
let us see how local religion could help consolidate the civil society 
that quickly developed there. As one of the few areas where local 
social ties could develop away from the powerful authoritarian control 
of the KMT before democratization in 1987, temple religion provided an 
important resource to put democracy on a strong social base. In 
contrast, authoritarian rule that more thoroughly destroyed all social 
ties has tended to be replaced by gangsterism, as in Albania, for 
instance. While temple religion did not directly cause Taiwan to 
democratize, it has been crucial in consolidating an effective 
democracy.\8\ We can see its role especially where temples help 
organize local people to protect their welfare, for example by 
protesting against polluting factories.
---------------------------------------------------------------------------
    \8\ Weller, Robert P. Alternate Civilities: Democracy and Culture 
in China and Taiwan. Boulder, CO: Westview, 1999.
---------------------------------------------------------------------------
                         POSSIBILITIES IN CHINA

    The growth of informal religion in China beginning in the 1980s is 
reminiscent of Taiwan a decade or two earlier. It is worth noting that 
while China continues to repress signs of religion that it feels might 
challenge its political monopoly, it has also allowed its people far 
more personal space than they had earlier. This has directly encouraged 
the current religious resurgence. Temple religion has no legal 
legitimacy in China, but local officials nevertheless often either turn 
a blind eye or cooperate in finding ways to legitimize newly rebuilt 
temples and revived festivals.
    In some ways this encourages local temples to mobilize social 
capital to negotiate with the state. One successful temple in Shaanxi, 
for example, achieved legitimacy with the local government by building 
an arboretum attached to the temple grounds, eventually attracting the 
attention of national and international NGOs.\9\ Others build schools, 
or call themselves museums to enhance local culture. Such activities 
may be undertaken cynically, just to keep the state from forbidding 
them. Once undertaken, though, the activities are real and have an 
effect on Chinese society. In the current political climate where China 
is trying to encourage local society to take over many welfare 
functions that it cannot provide, we can expect to see religion of all 
kinds, both formal and informal, to increase its social role.
---------------------------------------------------------------------------
    \9\ Chau, Adam Yuet. Miraculous Response: Doing Popular Religion in 
Contemporary China. Stanford: Stanford University Press, i.p.
---------------------------------------------------------------------------
    Temples also sometimes help organize popular protest, mobilizing 
social capital on behalf of the rights of a village. In one case in 
Gansu, for instance, local fertility goddess cults organized an 
environmental protest movement.\10\ The argument that pollution 
threatened the health of their children provided the connection to the 
fertility goddesses. Such arguments are particularly powerful in rural 
China now because of the one child policy. While this hardly qualifies 
as civil society, it does show the potential of religion to develop 
means for the direct expression of popular needs.
---------------------------------------------------------------------------
    \10\ Jing, Jun. ``Environmental Protests in Rural China.'' In 
Chinese Society: Change, Conflict and Resistance, edited by Mark Selden 
and Elizabeth J. Perry. New York: Routledge, 2000.
---------------------------------------------------------------------------
    None of this means that informal religion is likely to push China 
toward democracy. While such religion has some democratic features in 
its internal organization and is a core reservoir of social capital, it 
is also limited by a fundamental localism and difficulties in scaling 
up.
    It has also survived for centuries under undemocratic regimes of 
every kind. Nevertheless, the Taiwan experience shows that informal 
religion can be very helpful in consolidating democratic openings. In 
addition, its current direction in China shows the way it can improve 
the quality of life--material life as much as spiritual--even under the 
current regime.
    Hundreds of millions of people are involved in temple-based local 
religion in China. While current Chinese policy has made room for this 
remarkable resurgence, it has also left local religion in a precarious 
legal position where it can be repressed at any moment and at the whim 
of any local official. China's government has a century-long modernist 
prejudice against local religion. Comparative evidence from Taiwan and 
Hong Kong, though, shows the important social and personal functions of 
these practices. They show clearly how these practices that the 
government dismisses as ``feudal superstition'' are perfectly 
compatible with modernity, and indeed how they can contribute to the 
successful construction of a modern and successful people. Simply 
broadening the political and legal understanding of religion in China 
to include these practices would be an important first step in 
improving the lives of many millions of people.

                                 <all>

</pre></body></html>
